     REDACTED FOR PUBLIC RELEASE




THE UNITED STATES MARSHALS
   SERVICE’S WORKFORCE
 PLANNING AND MANAGEMENT
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 07-38
              July 2007




     REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


            THE UNITED STATES MARSHALS SERVICE’S
            WORKFORCE PLANNING AND MANAGEMENT

                              EXECUTIVE SUMMARY *

       The United States Marshals Service (USMS) is the federal law
enforcement agency responsible for providing security and support to the
federal courts, apprehending fugitives, protecting federal witnesses, and
managing assets seized by the Department of Justice (DOJ). The USMS is
divided into 94 offices covering the 94 federal judicial districts and the
Superior Court of the District of Columbia (D.C. Superior Court). Each USMS
office is headed by a presidentially appointed U.S. Marshal. 1 The USMS’s
overall budget was $801.7 million in fiscal year (FY) 2006.

      As of September 15, 2006, the USMS employed 4,593 non-contract
employees, with 3,506 of them assigned to its district offices and 1,087 to
headquarters. The USMS also uses contract employees to perform certain
tasks, such as processing and transporting prisoners. In total, the USMS
expended over $264.6 million in FY 2005 for more than 6,000 full-time and
part-time contractors. 2

Office of the Inspector General Audit

       In this audit, the Office of the Inspector General (OIG) assessed the
USMS’s management of its workforce. The specific objectives of the audit
were to determine whether the USMS: (1) adequately designed, tested, and
implemented a workforce management plan that sufficiently assesses its
human resources and capacity requirements based on current and expected
workloads; (2) evaluates, monitors, and corrects, if necessary, its personnel
utilization to ensure it directs appropriate resources to its highest priorities

       *
         The full version of this report includes a limited amount of information that the
United States Marshals Service (USMS) considered to be law enforcement sensitive and
therefore could not be publicly released. To create this public version of the report, the OIG
redacted (deleted) the portions of the full report that were considered sensitive by the
USMS, and we indicated where those redactions were made.
       1
          Currently, there are 94 federal judicial districts, including at least 1 district in each
state, the District of Columbia, Puerto Rico, the Virgin Islands, Guam, and the Northern
Mariana Islands. The U.S. Marshal for the District of Guam also oversees the District of the
Northern Mariana Islands, resulting in 93 U.S. Marshals for 94 federal judicial districts. The
inclusion of one non-federal district, the D.C. Superior Court, results in 94 U.S. Marshals.
       2
         The USMS could not provide us with an exact number of contract personnel
because the agency does not track the number of personnel provided through some national
contracts.


                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


and achieves its organizational objectives; (3) has sufficiently addressed pay
compensation issues, including job-grade and career progression; and (4) has
provided adequate and appropriate training to its operational employees.

       To accomplish these objectives, we interviewed more than 180 USMS
personnel, including the USMS Director and U.S. Marshals in most of the
offices we visited. 3 We also analyzed empirical data related to the USMS’s
resource allocation, utilization, and workload for the period of FYs 2000
through 2005. Finally, we conducted fieldwork at seven USMS district offices
– the Central District of California, D.C. Superior Court, District of Rhode
Island, Northern District of Illinois, Southern District of Florida, Southern
District of New York, and Western District of Texas. Additional information
about our audit scope and methodology is contained in Appendix I.

Audit Results

       In FY 2006, USMS management issued a new strategic plan,
re-evaluated the process by which the USMS allocates its personnel
resources, and revised directives regarding the career progression of its core
operational personnel. However, weaknesses remain in the integration of
the USMS’s strategic plan with its daily activities; the accuracy, consistency,
and comprehensiveness of data that the USMS uses for resource planning
efforts; the USMS’s monitoring of how its personnel are utilized; the
adequacy of training for USMS operational employees; and the management
of the USMS’s training budget.

Workforce Planning

       In performing its planning activities, the USMS has faced significant
challenges because the bulk of its workload is not self-initiated and instead
originates from other agencies and the judicial system. We found that the
USMS has recently improved its strategic planning activities and taken steps
to refine the quantitative models used to determine its resource needs.
However, we found some weaknesses in the execution of its planning
processes and the data systems that feed these processes.

       Strategic Planning Activities

      According to USMS budget formulation officials, prior to January 2006
the bulk of the USMS’s planning processes revolved around the preparation


       3
         We did not interview the U.S. Marshal for the Southern District of New York, as he
was not in the district during our field visit. Additionally, we interviewed the Acting
U.S. Marshal for the D.C. Superior Court.

                                   - ii -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


and submission of the annual budget, rather than through the establishment
of long-term goals and strategies.

      In January 2006, the USMS issued a more comprehensive strategic
plan for FYs 2006 through 2010. Despite being widely distributed
throughout the USMS, we found that many of the field employees with
whom we spoke, including supervisors, were not familiar with the strategic
plan.

      In addition, after the new 5-year strategic plan was issued, the USMS
Director assigned each organizational unit’s senior management the task of
developing Unit Performance Plans detailing how each unit would plan and
monitor its progress relative to the strategic plan. 4 During our fieldwork, we
found that central responsibility for ensuring that the Unit Performance Plans
are complete, accurate, and meaningful had not yet been assigned. We
believe that the USMS should ensure that the Unit Performance Plans
provide reasonable steps for implementing and monitoring progress relative
to the overall strategic plan.

      Workforce Planning Models

      Despite the challenge of a largely reactive workload, the USMS has
developed a good model to determine its resource needs and should
continue its efforts to strengthen the model. However, we found that the
data systems that feed the model, and also are used in the budget
decision-making process, contain weaknesses that can hinder an accurate
assessment of the USMS’s resource needs.

      According to the USMS, the USMS began using quantitative methods
to determine its resource needs in 1986. The primary model the USMS used
during our review period, from FYs 2000 through 2005, was the District
Budget Model (DBM).

       First used in 2000 for the development of the FY 2002 budget request,
the USMS developed the DBM in an attempt to quantify optimal staffing
levels within district offices under ideal budget conditions. The DBM
combines work standards and historical workload data from multiple sources,
including narrative district assessments and the USMS’s automated systems.
The DBM, via various mathematical formulas, then generates the number of
district personnel needed to complete tasks in a set amount of time at
current workload levels and performance and safety standards.


      4
          Organizational units include headquarters components as well as district offices.

                                    - iii -
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


      The USMS supplemented its use of the DBM with the Workforce
Equalization Model (WEM) to account for the routine difference in figures
calculated by the DBM and the number of authorized full-time equivalent
(FTE) positions. The USMS described the WEM as identifying what the
agency can afford to provide each district if the available positions were
proportionally distributed according to the DBM.

       In January 2006, the USMS Director suspended use of the DBM and
the WEM. Additionally, he established an internal working group to review
current USMS staffing and funding resource allocation processes and to
recommend potential improvements. In June 2006, the working group
reported to the Director that the DBM was a valid and useful model for
determining the appropriate staffing requirements of the USMS’s district
offices and the USMS should continue to use it as a staffing model. In
addition, the working group highlighted the DBM’s utilization of data from
automated systems that the USMS uses to track or conduct its missions and
identified the importance of data verification as a critical element of the
model’s integrity. The working group also recommended the use of the WEM
be continued, with a modified staffing threshold, for reallocation purposes.

       We concur with the working group’s overall findings and believe that
the USMS should continue to use the DBM and seek continual improvements
to its resource planning process. Moreover, we agree with the findings that
data validity is critical to the integrity of the staffing model.

      Concerns with USMS Data Systems

      The USMS utilizes information from a number of data systems, which
feed into the DBM and the USMS’s budget decisions, to track and monitor
employee utilization and workload by function. While we did not perform an
analysis of each of the systems, we identified several areas of concern
regarding the accuracy and reliability of the data contained in three of the
systems – the USM-7, the Warrant Information Network (WIN), and the
Prisoner Transportation System (PTS).

      During our review of these three USMS data systems, we found that
only a limited number of personnel at USMS headquarters understood and
could interpret the data captured in these systems. In particular, USMS
headquarters program personnel responsible for issuing plans and policies
that define the purpose and use of each data system were, at times,
unfamiliar with the contents of the databases. In fact, we were unable to
discuss fully with USMS officials the results of several of our analyses
because, when we were directed by certain program officials to speak with


                               - iv -
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


an individual within another division to explain matters, the official directed
us back to the program officials for the explanation.

       Following is a brief discussion of the concerns we identified.

   •   USM-7 – We reviewed the system the USMS uses to track time spent by
       its workforce – the USM-7. The system utilizes a combination of
       program and project codes to denote the specific work activity
       performed. Program codes reflect broad USMS mission areas, such as
       court security, while project codes provide the greatest level of detail by
       describing specific activities. Theoretically, each project code is linked
       to a particular program code within the USM-7 system. However, we
       noted deficiencies with the codes, including missing, poorly defined, and
       an excessively large number (1,607) of project codes, as well as
       undefined program codes.

       Further, in FY 2005 the USMS expended $18.5 million to procure the
       services of an unknown number of personnel provided through contracts
       with national vendors for guard services. 5 Although all USMS
       employees are required to record their time in the USM-7 by specific
       activity (project code), these types of contractors, who perform many of
       the same duties as USMS operational personnel, are not required to
       record their time in a manner similar to USMS operational personnel.
       Instead, these types of contractors use timesheets provided by the
       vendors, who are responsible for their maintenance. As a result, we are
       concerned that the USMS is unable to completely define its total
       workload or the total level of effort expended in each mission area in
       which these types of contractors are utilized. We believe that tracking
       the activity of these types of contractors in a manner similar to USMS
       operational personnel would benefit the USMS because it would provide
       a more accurate depiction of the total level of effort needed to
       accomplish the many functions of the USMS.

   •   Warrant Information Network (WIN) – The WIN is a computer-based,
       automated system used to manage records and information collected
       during investigations of fugitives and potential threats directed at the
       federal judicial system. It contains both historical and current case
       data for all USMS investigations. While our analysis was not intended
       to verify the accuracy of the system as a whole, certain irregularities
       came to our attention during our analysis of the WIN data.


       5
         The USMS does not maintain statistics on the number of guards provided through
vendors under national contracts.


                                  -v-
                       REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


      Specifically, we identified missing district office markers, improper
      status indicators, and improper use of system codes. Although these
      inconsistencies accounted for less than 1 percent of the total number
      of records contained in the data file we reviewed, we believe these
      errors, if left unchecked, could affect the overall accuracy of the
      system. According to a USMS headquarters official, the USMS
      performs various reviews of data in the WIN throughout the year.
      However, our identification of these inconsistencies indicates that the
      system does not have adequate automated controls to ensure that
      these types of errors do not occur in the future and do not negatively
      affect USMS planning efforts.

  •   Prisoner Tracking System (PTS) – The PTS is a computer-based,
      automated system used to manage records and information related to
      the USMS’s handling of federal prisoners. We identified inconsistencies
      in the PTS that affect the USMS’s ability to accurately account for the
      number of prisoners it handles. Specifically, we were told that because
      of administrative staff shortages within the district offices and an
      increasing volume of prisoners, a portion of the prisoner movements
      are not entered into the PTS. As a result, a USMS official estimated
      that the district offices are capturing only about 80 percent of their
      prisoner transports. For example, the PTS data file indicated that the
      D.C. Superior Court had only 52 prisoner movements during FY 2000,
      but 34,503 movements during FY 2005. The primary reason for this
      change, according to a USMS official, was the compliance of deputies
      within the district to this recordkeeping requirement. Because prisoner
      movements represent a significant workload indicator for the USMS, it
      is critical for workforce planning that this system is as accurate as
      possible.

       The errors and inconsistencies we identified in some of the data
systems the USMS uses to manage its workforce call into question the
validity of the data. Because its data systems directly feed its resource
planning models, the USMS may be basing its resource request, allocation,
and utilization decisions on inaccurate and inconsistent data.

USMS Workload and Resource Utilization

       To assess the USMS’s efforts to execute and evaluate its performance
relative to its available workforce, we examined the USMS’s use of its
personnel resources and the workload addressed between FYs 2000 and
2005.



                               - vi -
                    REDACTED FOR PUBLIC RELEASE
                                                   REDACTED FOR PUBLIC RELEASE


     Resources Generally Directed Towards Primary Mission Area

      As shown in the following chart, during most of our review period the
USMS utilized the largest portion of its operational personnel on what it
considers to be its primary mission area – Judicial and Courthouse Security.

                                        USMS OPERATIONAL PERSONNEL UTILIZATION
                                            FISCAL YEARS 2000 THROUGH 2005
                                                  Judicial & Courthouse Security       Fugitive Apprehension
                                                  Prisoner Security & Transportation   Protection of Witnesses
                                                  Operations Support                   Other


                                       1,200


                                       1,000
         Full-Time Equivalents (FTE)




                                        800


                                        600


                                        400


                                        200


                                          0
                                               FY 2000      FY 2001       FY 2002      FY 2003       FY 2004     FY 2005

                                       Source: OIG analysis of USM-7 data

     USMS Does Not Regularly Review Utilization

       The USMS does not allocate positions by mission or task area. Rather,
each district is allocated a pool of employees that U.S. Marshals may utilize
as they deem appropriate. According to several management officials at
USMS headquarters and district offices, the USMS does not systematically
review the utilization of resources on all aspects of USMS operations because
it believes it knows how its resources are being used. However, we believe
periodic reviews of resource utilization would be beneficial to USMS
management to ensure that the USMS is appropriately addressing priority
tasks. Regular reviews would also help to ensure that the USMS is using the
most accurate personnel and workload data possible in its resource planning
processes.




                                                              - vii -
                                                   REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE



      During our analysis of the USMS’s use of its personnel resources and
workload, we identified inconsistencies in the level of effort recorded on
matters related to judicial protective investigations and fugitives, as well as
the potential use of USMS contractors on prohibited activities. 6

       Level of Effort Recorded on Judicial Protective Investigations – Several
judicial security-related incidents in the past few years, including the murder
of family members of a federal judge in Chicago, Illinois, as well as a
shooting within a Georgia state courthouse, have raised the visibility and
importance of investigating potential threats to federal judges, prosecutors,
and jurors. The USMS conducts a protective investigation primarily in
response to inappropriate communications or direct threats. 7 Several USMS
officials, including the Director, stated that the investigation of threats
against the federal judiciary is one of the top priorities of the agency.

      Based upon the emphasis placed on this responsibility, we expected to
see a significant number of FTEs utilized in this area. However, we found that
the USMS data reflects that the USMS utilized just 24 FTEs on protective
investigations during FY 2005, a number that includes all 94 district offices
and headquarters, including the Office of Protective Intelligence (OPI). 8 We
reviewed this data in concert with statements made by OPI officials
responsible for the program and from district employees responsible for
conducting the protective investigations, and we noted inconsistencies.
Specifically, there appears to be a great deal of uncertainty about the amount
of work the USMS is performing in the area of protective investigations. We
believe that the USMS should examine the use of its resources related to
protective investigations and determine if the appropriate level of effort is
being expended.


       6
          According to USMS officials, these investigations are referred to as “protective
investigations,” although the USM-7 project code refers to them as “threat investigations.”
       7
          According to the USMS, an inappropriate communication is “any communication in
writing, by telephone, verbally, through an informant, or by some suspicious activity that
threatens, harasses, or makes unsettling overtures of an improper nature directed toward a
USMS protectee.” Additionally, a threat is “any action, whether explicit or implied, of an
intent to assault, resist, oppose, impede, intimidate, or interfere with any member of the
federal judiciary, or other USMS protectee.” For purposes of this report, we refer to all
inappropriate communications/threats as “potential threats.”
       8
         Established in February 2005, the mission of the OPI is to provide the USMS with
protective investigation analyses. The OPI collects, analyzes, and disseminates information
about groups, individuals, and activities that pose a potential threat to persons and property
protected by the USMS.


                                   - viii -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


      We also identified a backlog with headquarters’ review of potential
threats. To assist in assessing risk and to help prioritize the response to
these communications, USMS headquarters is responsible for reviewing
information related to each potential threat and assigning a threat-level
rating. 9 This rating is reflected in the WIN system. However, during our
review of threat-related data in the WIN system, we identified a total of
211 potential threats reported to USMS district offices during FY 2005 with a
rating of “0.” According to the USMS, this is the default value recorded until
the threat analysis is completed. The 211 unrated records as of
October 2006 represent 23 percent of the 922 total potential threats
recorded in FY 2005.

      When we presented information on the missing mosaic ratings to a
senior analyst assigned to the OPI, which is the unit responsible for rating
the threats, the analyst stated that the office is continually short-staffed and
that the unit is simply not able to review every potential threat in a timely
manner. While the unit was aware that a backlog existed, the senior analyst
expressed surprise at the extent of the backlog that we identified and
acknowledged that it would be helpful if the unit performed analyses similar
to ours. At the conclusion of the audit, a USMS official informed us that the
USMS had resolved the backlog as of March 2007. 10

       Level of Effort Recorded on Fugitive Apprehension – According to
USM-7 data, the USMS used 317 more operational FTEs on fugitive
apprehension matters during FY 2005 than during FY 2000, which was
consistent with the 45 percent increase we identified in the total number of
fugitive warrants received. However, several individuals from the district
offices we reviewed had contradictory viewpoints on the USMS’s fugitive
apprehension efforts. Personnel at many of these district offices stated that
the USMS’s fugitive apprehension activity had suffered because district
offices were not able to devote as many deputies to fugitive work in FY 2005
as they had in FY 2000, even though their fugitive warrant workload had

       9
          During our review period, the USMS used a rating system referred to as the
mosaic rating. This rating system applied an algorithmic formula to answers for
31 multiple-choice questions. While this tool was used to assist in addressing protective
investigations, the USMS stated that it did not imply that inappropriate communications
with low or moderate threat levels were not handled. Instead, the USMS remarked that all
inappropriate communications are to be investigated and assessed commensurate with the
threat level.
       10
          According to the USMS, it was not necessary to perform mosaic analyses on these
cases in order to resolve them because the cases had already been closed by district offices
without requests from district offices to the OPI for further analysis. Additionally, utilizing
personnel to perform analyses on cases that had been determined by district offices to not
be credible would be an inefficient use of resources.

                                    - ix -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


increased during this time. These individuals further commented that
deputies often were pulled from fugitive investigations to assist with myriad
court-related duties, causing a backlog on fugitive-related matters.

      Possible Use of Contractors on Prohibited Activities – According to
USMS policy, district offices may procure the services of contractors to
perform certain activities, including securing and processing federal
prisoners in the cellblock, courtroom, and during transportation; securing
and transporting federal prisoners to and from medical appointments and/or
hospitalization; and securing federal, seized, or forfeited property. However,
these contractors are prohibited from performing other activities, including
personal security details and investigative work.

      During our review of historical resource utilization data, we found that
some contractors had recorded time on activities that they are prohibited by
USMS policy from performing. For example, USM-7 data indicated that
contractors had charged time to federal felony and non-felony warrant
investigations, state and local warrant investigations, cases related to the
USMS’s “15 Most-Wanted Fugitives,” major cases, terrorist investigations,
and protective investigations. Similarly, we identified several instances in
which contractors had recorded time on protective details of federal judges
and government officials.

      In total, we computed that from FYs 2000 through 2005, USMS
contractors’ recording of time on restricted duties ranged from 22 to 43 FTEs
per year. 11 USMS headquarters officials offered several possible
explanations for these instances. However, these officials could not confirm
that contractors had not performed prohibited activities. We believe that
USMS management should regularly review the utilization of contract guards
and ensure that USMS policy regarding use of contractors is being followed
throughout the USMS.

USMS Operational Workforce Structure

     The USMS uses several different types of operational employees to
accomplish the various functions assigned to the agency. 12 In FY 2000, the
USMS established a three-tiered workforce model for its operational

       11
          We used a conservative approach for determining the number of contract guard
FTEs that were not potentially used in accordance with USMS policy. The specific meaning
of some time charges was not evident, and we could not determine whether they should be
considered allowable or restricted duties. In these instances, we treated these time charges
as being permissible.
       12
            See Appendix II for a nationwide breakdown of USMS employees by position type.

                                    -x-
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


employees. According to a USMS headquarters official, the USMS took this
action to more appropriately match employee skill and pay levels with job
tasks after officials recognized that the USMS frequently utilized highly trained
deputies to perform less complex court-related duties, including prisoner
detention and transportation. This three-tiered workforce consists of
Detention Enforcement Officers (DEO), Deputy U.S. Marshals (DUSM), and
Criminal Investigator Deputy U.S. Marshals (CIDUSM). In addition to their
assigned tasks, each position may perform the duties of the lower tier.
Following is a description of the positions in ascending order.

         •   DEO (GS-1802-5/7) – DEO responsibilities consist primarily of
             processing and transporting prisoners to and from correctional
             facilities, medical appointments, and court proceedings.

         •   DUSM (GS-082-5/11) – DUSM responsibilities include
             supervising prisoners during court proceedings and assisting
             CIDUSMs with more complex investigative duties.

         •   CIDUSMs (GS-1811-5/12) – CIDUSMs are responsible for
             investigative activities, including surveillance, protective
             assignments, threat analysis, and witness protection.

      USMS Steps to Address Career Progression and Pay Compensation

      During our audit, several district representatives, including
U.S. Marshals, expressed concern with the three-tiered structure as it
existed from FYs 2000 through 2006 because it affected the career
progression of DUSMs. Many district representatives believed that the
structure had created tension among operational personnel and contributed
to low morale among DUSMs. In September 2006, the USMS implemented a
new directive that permits all DUSMs that meet certain requirements to non-
competitively convert to a CIDUSM position. In our opinion, this recently
adopted conversion program will help alleviate the problems expressed by
many of the district representatives we interviewed. However, this program
was only recently implemented, and we believe that the USMS must closely
monitor its implementation to ensure it meets the needs of the USMS and its
workforce.

       During our audit, operational personnel also expressed dissatisfaction
with the GS-12 journeyman level of USMS CIDUSMs. According to these
individuals, criminal investigators at other DOJ components, namely the
Federal of Bureau of Investigation and the Drug Enforcement Administration,
attain journeyman status at the GS-13 level. The CIDUSMs believed that
their duties were comparable to those performed by criminal investigators at

                                - xi -
                     REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


these other agencies and thus should be afforded equivalent journeyman
level status.

       The Office of Personnel Management (OPM) formally issues all position
classification standards that provide grading criteria for positions classified
under the General Schedule Classification System. Although OPM provides a
framework, it is ultimately the responsibility of each agency to properly
classify its positions. We discussed the classification concerns with the
USMS Director, who stated that he plans to reassess the classification of the
USMS’s criminal investigators.

Employee Training

      In addition to reviewing how the USMS plans for and utilizes its
personnel resources, we reviewed the USMS’s efforts to train its workforce.
According to USMS policy, each operational employee attends formalized,
basic training at the USMS Training Academy, which is co-located at the
Federal Law Enforcement Training Center (FLETC) in Glynco, Georgia. 13 Until
September 2006, the USMS operated separate basic training programs for
each of its operational positions – DEOs, DUSMs, and CIDUSMs. This changed
at the end of FY 2006 when the training program was revamped so that all
newly hired DUSMs would undergo criminal investigator training as part of
their DUSM basic training.

      Lack of Continued Training Opportunities

       We found that the USMS generally provided adequate instruction
during its basic training classes. However, a large number of operational
employees we interviewed expressed concern about the lack of continued
training opportunities beyond the Academy. For example, several
individuals at each of the seven district offices we visited voiced concern
about the lack of advanced firearms training. According to the USMS, this
type of training is provided in the formal course entitled Advanced Deputy
Refresher Training, which was implemented in 1993. Although the USMS
intends for this training be completed by CIDUSMs after serving 5 years in
this position and then every 3 years thereafter, the USMS conducted very
few Advanced Deputy Refresher Training sessions during FYs 2004 and
2005. Additionally, some CIDUSMs remarked that they had only attended
one Advanced Deputy Refresher Training course during their tenure as a
CIDUSM, which in some cases had been at least 9 to 10 years.


      13
          FLETC serves as an interagency law enforcement training organization for over
80 federal agencies, including the USMS.

                                  - xii -
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


     Inadequate Training Records System

       We attempted to analyze empirical data to determine if USMS
personnel attended mandatory training in a timely manner. However, we
were unable to conduct such an analysis because the USMS did not maintain
adequate documentation of the training provided or received. For example,
to comply with our request for information related to the advanced deputy
course completion, USMS Training Academy officials manually reviewed
hard-copy documents, such as course rosters. In gathering the data, USMS
officials identified significant amounts of missing, erroneous, and
inconsistent information. Ultimately, we could not use the data provided
because it was not sufficiently reliable. This lack of an automated system
has reduced the USMS’s ability to accurately assess the training needs and
activities of its personnel. USMS headquarters and Training Academy
officials agreed that the agency needs a mechanism for managing training
information and reported that DOJ is exploring the procurement of a single
system for use by all its components.

     Management of USMS Training Budget

      The amount of funds budgeted for USMS training matters has
fluctuated since FY 2003, as shown in the following chart.

                  USMS ALLOCATED TRAINING FUNDS
                          FISCAL YEARS 2003 THROUGH 2006



                $7.5
               Million




                                                            $5.4
                                  $5.1                     Million
                                 Million




                                              $3.1
                                             Million




               FY 2003           FY 2004    FY 2005        FY 2006


           Source: USMS Training Academy



                                    - xiii -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


         A senior official from the USMS Training Academy noted that FY 2003
  was a “banner” year in which a sizeable amount of funds were allocated for
  training to accommodate a hiring push of DUSMs. This official stated that he
  would prefer more stable funding amounts so the Training Academy could
  more effectively plan for its activities.

        While many operational employees generally cited lack of adequate
  funding as the reason for most of the training issues we identified, we found
  that the USMS Training Academy had a significant amount of funds that
  were not expended prior to making end-of-year purchases, such as
  ammunition and vehicles. 14 Even after accounting for these purchases, the
  USMS recorded a surplus in training funds, which was returned to the
  agency’s general fund in each of these fiscal years. The following table
  provides details on the USMS’s training budgets from FY 2003 through
  FY 2006.

                         USMS TRAINING BUDGET RECAP
                            FYs 2003 THROUGH 2006
                                                   End-of-Year                    Overall
                                       15
 FY       Allocation      Expenditures    Balance   Purchases                    Surplus
2003      $7,515,631        $6,667,491    $848,140   $623,640                    $224,500
2004      $5,058,087        $4,705,965    $352,122   $168,302                    $183,820
2005      $3,075,550        $2,964,073    $111,477    $85,852                     $25,625
2006      $5,432,467        $5,078,636    $353,831   $312,524                     $41,307
Source: OIG analysis of USMS Training Academy data


        Although we recognize that it is impossible for the USMS to use its
  entire training budget in each fiscal year, these significant end-of-year
  purchases and surpluses suggest that the training funds could be managed
  more effectively. Considering the numerous statements made to us by
  USMS employees indicating a need for continued training, the USMS should
  ensure that allocated training funds are being utilized to their greatest
  extent for training purposes.


        14
             According to a USMS Training Academy official, these end-of-year purchases may
  include items purchased to support the Training Academy’s response support mission.
  According to this official, Training Academy personnel and trainees are deployed during
  national emergencies, such as the September 11, 2001, terrorist attacks, and Hurricane
  Katrina. This requires that the Academy maintain supplies on-hand that it may need to
  provide an immediate response to future emergencies. The USMS official further stated that
  end-of-year purchases may include costs related to the Academy’s administration of the
  USMS’s firearms, less-than-lethal, and body armor programs.
        15
           This column includes those costs incurred by the USMS for Academy class
  expenditures, operating expenses, FLETC charges, and external training courses.

                                    - xiv -
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


       A USMS headquarters official spoke to this issue at the conclusion of
our audit and commented that when budgeting for classes, the Academy
projects for a worst-case scenario. Therefore, if the cost for classes is lower
than projected, the Academy will have additional funds remaining at the end
of a fiscal year. Further, this official noted that it generally is not until near
the end of the fiscal year that the Academy is able to adequately determine
the amount of remaining funds. While we understand that the Training
Academy cannot predict the amount of surplus training funds in any given
fiscal year, we believe that the USMS could improve its planning so that
these training funds are used to provide additional training, either external
or internal, for its operational personnel.

Conclusion

      During FY 2006, the USMS undertook several projects designed to
address long-standing concerns at the agency, including: (1) the
development and issuance of a comprehensive strategic plan; (2) the
appointment of an internal USMS working group to review resource
allocation processes and suggest new processes; (3) the establishment of a
new USMS career track for deputies; and (4) the stated intention to review
the grade structure for USMS operational positions.

      In concert with the establishment of the new strategic plan, the
USMS Director assigned all organizational units the task of creating Unit
Performance Plans to reflect how each unit would implement the plan and
measure its performance. However, we found that the USMS had not
established a review mechanism to ensure that the unit plans are complete,
accurate, and in line with the goals of the strategic plan.

      We also identified inaccuracies and inconsistencies in data from some
of the USMS’s automated systems. Besides questions regarding the
completeness and accuracy of the data being recorded by USMS operational
personnel, we also noted that a portion of the USMS’s contracted employees
do not record their time in a manner similar to USMS operational personnel.
The exclusion of this data, as well as the inaccuracies and inconsistencies,
indicates the USMS may be unable to completely define its total workload or
the total level of effort expended in each mission area.

     Further, we found that only a limited number of personnel at
USMS headquarters understand and can interpret the data captured in these
systems. Specifically, we found that USMS headquarters program personnel
responsible for issuing plans and policies that define the purpose and use of
each data system were, at times, unfamiliar with the contents of the
databases. Additionally, we found that USMS management does not

                                - xv -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


routinely review resource utilization reports. As a result, the USMS could not
fully explain inconsistencies we identified in the level of effort expended on
protective investigation and fugitive matters, as well as the utilization of
contractors.

       We also identified concerns with the USMS’s training program. Our
review indicated that while basic operational training appears to be sound
and provide a good foundation for beginning personnel, training for
operational personnel beyond their initial Academy experience needs
improvement. Additionally, we were unable to review empirical data related
to the USMS’s training efforts because the USMS lacks a system that
accurately records and adequately manages its training needs and activities.
Moreover, we believe that the USMS has not adequately managed its
training funds. Specifically, the Training Academy returned surpluses in its
training fund to the USMS general fund at the end of each of these fiscal
years. These practices could indicate that all of the USMS’s training needs
are being met when, based on our review, they are not.

       To assist the USMS in the improvement of its workforce management
and planning, we offer 15 recommendations for the USMS to improve its
operations, including improving the resource utilization reporting for USMS
employees and contractors, enhancing USMS automated systems to help
ensure data validity and integrity, and reviewing the USMS’s on-going
training efforts.




                               - xvi -
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


            THE UNITED STATES MARSHALS SERVICE’S
            WORKFORCE PLANNING AND MANAGEMENT

                                TABLE OF CONTENTS


CHAPTER 1: INTRODUCTION .............................................................1

    Organizational Structure ................................................................. 3
    USMS Workforce Composition .......................................................... 4
    Prior Reports ................................................................................. 5
    Audit Approach .............................................................................. 6
CHAPTER 2: USMS WORKFORCE PLANNING ......................................8

    Strategic Planning .......................................................................... 8
    Workforce Management Planning.................................................... 10
    Chapter Summary........................................................................ 20
    Recommendations........................................................................ 21
CHAPTER 3: USMS RESOURCE UTILIZATION AND WORKLOAD........23

    USMS Resource Utilization............................................................. 23
    USMS Workload ........................................................................... 26
    USMS Efforts to Monitor and Assess its Performance ......................... 30
    Chapter Summary........................................................................ 40
    Recommendations........................................................................ 40
CHAPTER 4: PAY COMPENSATION AND CAREER PROGRESSION......41

    Three-Tiered Workforce ................................................................ 41
    Career Progression ....................................................................... 43
    Compensation ............................................................................. 44
    Chapter Summary........................................................................ 44
CHAPTER 5: USMS TRAINING .........................................................46

    Planning and Implementation of Training Programs........................... 46
    Basic Academy Training ................................................................ 47
    Continuing Employee Training........................................................ 50
    Management of Training Funds ...................................................... 53
    Inadequate Training Records ......................................................... 54
    Chapter Summary........................................................................ 55
    Recommendations........................................................................ 55




                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

APPENDIX I:      OBJECTIVES, SCOPE, AND METHODOLOGY...............57

APPENDIX II:     USMS WORKFORCE..................................................65

APPENDIX III: MAP OF USMS DISTRICT OFFICES...........................68

APPENDIX IV:     PRIOR REPORTS .....................................................69

APPENDIX V:      USMS MISSION ACTIVITIES ....................................73

APPENDIX VI:     UNITED STATES MARSHALS SERVICE RESPONSE....74

APPENDIX VII: OFFICE OF THE INSPECTOR GENERAL ANALYSIS
                AND SUMMARY OF ACTIONS NECESSARY TO
                CLOSE THE REPORT ...........................................87




                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


                    CHAPTER 1: INTRODUCTION
      Since its establishment in 1789, the United States Marshals Service’s
(USMS) primary role has been to support the federal judicial process. Since
1960, several new functions have been assigned to the USMS, such as
seized asset management and protection and security of witnesses. These
new functions have significantly broadened the overall mission of the USMS
and added to its management complexity. This broad overall mission
presents significant workforce planning and management challenges. It is
therefore important for the USMS to have a strong workforce management
plan.

       According to the USMS Director, the USMS’s highest mission priority is
judicial security, which includes physically protecting courthouses, judges,
and other court employees. The next highest priority after judicial security is
the apprehension of fugitives. According to the Director, fugitive
apprehension tasks can sometimes be delayed to allow the USMS to make
short-term resource adjustments for the sake of more emerging matters.

     Exhibit 1-1 lists the current mission areas and related activities of the
USMS, including each organizational unit within the USMS that is primarily
responsible for handling these various functions.




                               -1-
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                                 EXHIBIT 1-1
                  USMS MISSION AREAS AND RELATED ACTIVITIES
                            Responsible USMS
USMS Mission Area           Organizational Unit                        Activities
Judicial and            Judicial Security Division      • Deputy marshals appearing in court
Courthouse Security                                       with prisoners in custody
                        District Offices
                                                        • Courthouse facility construction and
                                                          renovations
                                                        • Courthouse security systems
                                                        • Courtroom and courthouse security
                                                        • Protective details for judges,
                                                          prosecutors, and others
                                                        • Threat analysis and investigations
                                                        • Courthouse and residential security
                                                          surveys
Fugitive Apprehension   Investigative Services Division • Domestic and international fugitive
                                                          investigations
                        District Offices
                                                        • Extraditions and deportations of
                        Fugitive Task Forces              fugitives
                        (congressionally mandated or • Financial crime investigations
                        other)                          • Service of process
Prisoner Security and   Witness Security and Prisoner • Booking prisoners in the cellblock
Transportation          Operations Division           • Prisoner transportation
                        Justice Prisoner and Alien     • Jail inspections
                        Transportation System          • Contract services for detention
                                                         facilities and prisoner medical
                        District Offices
Protection of Witnesses Witness Security and Prisoner • Protecting government witnesses
                        Operations Division           • Producing protected witnesses for
                                                        court proceedings
                        District Offices
                                                      • Re-documenting and relocating
                                                        protected witnesses
Operations Support      Operations Support Division    • Security, rescue, and recovery
                                                         activities for natural disasters and civil
                        District Offices                 disturbances
                                                       • Emergency operations
                                                       • Continuity of government operations
                                                       • Special events designated by the
                                                         Attorney General
                                                       • Audits and inspections of USMS
                                                         operations
Seized Asset            Asset Forfeiture Office        • Seizing assets gained by illegal means
Management                                             • Protection, management, and disposal
                        District Offices
                                                         of seized assets
Source: USMS




                                   -2-
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


Organizational Structure

       USMS headquarters, located in Arlington, Virginia, provides direction
and oversight for the 94 USMS district offices. 16 USMS headquarters is
divided into five operational and four management and administrative
divisions. 17 Each division utilizes input from individual U.S. Marshals in
developing the strategic objectives, management policies, and operational
protocol for its respective mission area. While USMS headquarters provides
oversight and assistance to each of the 94 district offices, each Presidentially
appointed and Senate-confirmed U.S. Marshal traditionally operates with a
significant level of autonomy. The following organizational chart highlights
the USMS’s divisions and lines of authority.

                                EXHIBIT 1-2
                         USMS ORGANIZATIONAL CHART

                                                         Director




                                                                         Office of Equal
                                  General Counsel                         Employment
                                                                          Opportunity




                                                     Deputy Director




                            Judicial Security                               Executive Services
                                Division                                        Division



                                                    (94) U.S. Marshals       Human Resources
                              Investigative
                                                                               Management
                            Services Division
                                                                                 Division


                            Witness Security
                                                                             Business Services
                              and Prisoner
                                                                                 Division
                           Operations Division


                           Justice Prisoner and
                                   Alien                                     Management and
                             Transportation                                  Budget Division
                                  System


                           Operations Support
                                Division




                         Source: USMS




      16
           See Appendix III for the geographical boundaries of the USMS’s district offices.
      17
           Certain headquarters-level components are located outside of USMS headquarters
in Arlington, Virginia. For instance, the USMS Training Academy is located at the Federal
Law Enforcement Training Center (FLETC) in Glynco, Georgia, and the USMS Tactical
Operations Center is stationed at Camp Beauregard, Louisiana.

                                    -3-
                         REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


USMS Workforce Composition

      To accomplish its various responsibilities, the USMS utilizes a
combination of employees and contractors. Based on our review of USMS
data for personnel on board as of September 15, 2006, the USMS employed
4,593 personnel, with 3,506 of them assigned to its district offices and 1,087
to headquarters. 18 The USMS’s core operational staff consists of Detention
Enforcement Officers (DEO), Deputy U.S. Marshals (DUSM), and Criminal
Investigator Deputy U.S. Marshals (CIDUSM). The responsibilities and grade
structure of these positions are as follows:

           •   Detention Enforcement Officer responsibilities consist primarily
               of processing and transporting prisoners to and from correctional
               facilities, medical appointments, and court proceedings. DEOs
               are graded GS-5 through GS-7.

           •   Deputy United States Marshals’ responsibilities include
               supervising prisoners during court proceedings and assisting
               CIDUSMs with more complex investigative duties. DUSMs are
               graded GS-5 through GS-11.

           •   Criminal Investigator Deputy United States Marshals are
               responsible for investigative activities, including surveillance,
               protective assignments, threats endangering the federal judicial
               process, and witness protection. CIDUSMs are graded GS-5
               through GS-12.

      The USMS budgets for and allocates its positions using two basic
categories: operational and administrative. In general, the operational staff
performs law enforcement activities, while the administrative staff performs
support functions. Exhibit 1-3 presents the composition of USMS operational
and administrative employees within district offices and headquarters.




      18
           According to the USMS, many of the employees who are designated as
headquarters employees, such as Inspectors detailed to regional fugitive task forces,
members of the USMS Special Operations Group, and all Training Academy officials, are
physically located throughout the United States, not at USMS headquarters.


                                  -4-
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                       EXHIBIT 1-3
DISTRIBUTION OF OPERATIONAL AND ADMINISTRATIVE EMPLOYEES

            District Offices                                   Headquarters

                               81%                                              45%
                                                         55%
      19%




                             Administrative       Operational
Source: OIG analysis of USMS data for personnel onboard as of September 15, 2006

       The USMS utilizes Court Security Officers (CSO), who are contract
employees with at least 3 years of prior law enforcement experience, to
provide security at courthouses and federal buildings housing court
operations. The USMS also utilizes other contract employees for duties such
as prisoner detention and transportation, securing prisoners in court, and
seized asset management. In total, the USMS expended over $264.6 million
in FY 2005 to procure the services of more than 6,390 full-time and
part-time contractors. 19 The USMS’s overall budget was $801.7 million in
fiscal year (FY) 2006.

Prior Reports

      The Department of Justice (DOJ) Office of the Inspector General (OIG)
previously reviewed various programs and management areas of the USMS
that pertain in some way to this review. For example, the OIG audited the
USMS’s use of independent contractors as guards and identified issues
regarding their utilization. 20 In addition, the OIG audited the USMS’s
Prisoner Tracking System (PTS) and recommended that the USMS
implement policies to enhance the integrity of the data contained in this
system. 21 The OIG also reviewed the USMS’s Judicial Security process and
       19
           The USMS could not provide us with an exact number of contract personnel
because it does not track the number of personnel provided through some national
contracts.
       20
          Department of Justice, Office of the Inspector General. United States Marshals
Service’s Use of Independent Contractors as Guards, Audit Report 05-24, May 2005.
       21
         Department of Justice, Office of the Inspector General. Review of the United
States Marshals Service Prisoner Tracking System, Audit Report 04-29, August 2004.


                                   -5-
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


found that it failed to assess the majority of reported threats against the
judiciary in a timely manner. 22 Additionally, the OIG reviewed the USMS’s
effort to apprehend violent fugitives and reported that while the USMS
apprehended more violent fugitives, both overall and per staff, the
proportion of its apprehensions that involved violent fugitives did not change
significantly. 23 Due to the large volume of material, a more detailed
discussion of each of these reviews is contained in Appendix IV.

Audit Approach

      The objectives of this audit were to determine whether the USMS:

     (1) adequately designed, tested, and implemented a workforce
management plan that sufficiently assesses its human resources and
capacity requirements based on current and expected workloads;

       (2) evaluates, monitors, and corrects, if necessary, its personnel
utilization to ensure it directs appropriate resources to its highest priorities
and achieves its organizational objectives;

     (3) has sufficiently addressed pay compensation issues, including job-
grade and career progression; and

     (4) has provided adequate and appropriate training to its operational
employees.

       To accomplish these audit objectives, we interviewed more than
60 USMS headquarters officials, including the Director, as well as officials
with DOJ’s Justice Management Division (JMD), regarding the budget
process, USMS budget submissions, and issues related to human capital
management. In addition, we reviewed USMS internal documentation, such
as manuals, planning materials, internal directives and policies, and financial
reports. We also obtained and analyzed empirical data for fiscal years
(FY) 2000 through 2005 related to the USMS’s resource allocation,
utilization, and workload. Finally, we conducted fieldwork at seven USMS
district offices – the Central District of California, D.C. Superior Court,
District of Rhode Island, Northern District of Illinois, Southern District of
Florida, Southern District of New York, and Western District of Texas. In

      22
           Department of Justice, Office of the Inspector General. Review of the United
States Marshals Service Judicial Security Process, Report I-2004-004, March 2004. The OIG
is currently performing a follow-up review of this matter.
      23
         Department of Justice, Office of the Inspector General. Review of the United
States Marshals Service Apprehension of Violent Fugitives, Report I-2005-008, July 2005.

                                  -6-
                       REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


general, the scope of our audit covered the period of FYs 2000 through
2005. However, in certain instances we expanded our scope to include
FY 2006 information.

       For the seven district offices in which we conducted fieldwork, we
reviewed documentation, including local policies, planning materials, reports,
and files applicable to our review. Additionally, we discussed each district’s
mission and activities with district representatives, such as the U.S. Marshal,
Chief Deputy U.S. Marshal, CIDUSMs, and DUSMs. In total, we interviewed
approximately 120 field personnel.

      The results of our review are detailed in Chapters 2 through 5 of this
report and the audit scope and methodology are presented in Appendix I. In
Chapter 2, we assess the USMS’s resource planning efforts, including its
strategic planning and development of mathematical models to identify its
personnel needs. Chapter 3 examines the USMS’s efforts to evaluate and
monitor its performance by analyzing its resource utilization and workload.
Chapter 4 discusses the career progression and related matters of USMS
operational personnel. In Chapter 5, we describe the training provided to
USMS operational employees and evaluate the adequacy of this training.




                               -7-
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


            CHAPTER 2: USMS WORKFORCE PLANNING

      Effective planning, which includes defining the common vision of the
agency and identifying the necessary steps to achieve that vision, is integral
to the success of an organization. We found that during the time period
covered by our review, the USMS operated under an inadequate strategic
plan that lacked several key standard elements. Although the USMS issued
a new strategic plan in January 2006, many district representatives with
whom we spoke were unaware of the plan and the USMS’s performance
goals and strategies contained within it.

      In performing its planning activities, the USMS faces challenges
because the bulk of its workload is not self-initiated and instead originates
from other agencies and the federal judicial system. Since 1995, the USMS
has taken steps to develop quantitative models to determine its resource
needs in association with its workload. However, we found weaknesses in
the data systems that feed the USMS’s workforce model and its budget
development process.

Strategic Planning

     In 1997, the USMS issued a 5-year strategic plan, but this plan lacked
several key standard elements. 24 The plan did not assess current and future
workload levels or outline how the USMS intended to distribute its resources
among competing priorities. Further, the plan did not provide a method by
which the USMS could assess the achievement of its goals and objectives.
During our audit, a senior headquarters official in the USMS’s Management
and Budget Division stated that the plan was weak and that USMS
employees reviewed it when it was first issued and then disregarded it.
Moreover, another USMS headquarters official told us that until recently, the
USMS’s strategic planning processes revolved around the preparation and
submission of the annual budget.




       24
           According to the 1993 Government Performance and Results Act (P.L. 103-62), a
strategic plan should cover a minimum of a 5-year period and contain a comprehensive
mission statement, define and prioritize the organization’s mission, identify key factors
external to the agency that might affect its ability to achieve its goals and objectives, and
assess current and future workload levels. In addition, the plan should outline the quantity
and mix of resources that the organization needs to achieve its priority strategic goals and
objectives. The plan should also detail the methods for measuring the progress and
controlling the performance of the organization.


                                   -8-
                        REDACTED FOR PUBLIC RELEASE
                              REDACTED FOR PUBLIC RELEASE


      In January 2006, the current USMS Director issued a more
comprehensive strategic plan for FYs 2006 through 2010. 25 The plan is
organized around six broad goals, including the USMS’s five basic mission
areas (Judicial and Courthouse Security, Fugitive Apprehension, Prisoner
Security and Transportation, Protection of Witnesses, and Operations
Support) and one overarching, cross-cutting area of Organizational
Excellence that covers organizational accountability; operational excellence;
information technology improvement; and human resources development,
integrity, and professionalism.

      To develop the new strategic plan, in October 2005 the USMS
established a Strategic Planning Committee consisting of district office and
headquarters personnel. The USMS Director instructed the committee to
generate a plan that was realistic and could be implemented without
expending additional resources. Each U.S. Marshal had the opportunity to
provide feedback before the Director submitted the plan to DOJ and received
approval to publish the document.

       The plan was first released to USMS management at two national
management conferences in early 2006. Additional copies of the plan were
then mailed to each of the 94 districts, a version was posted on the USMS
intranet, and an e-mail was sent to all USMS personnel. However, during our
site visits to the district offices, we found that although most senior
managers were aware of the strategic plan, many of the administrative
employees and operational staff, including some supervisors with whom we
spoke, were not familiar with it. We believe that USMS district management
should better publicize the strategic plan to district employees.

       When the FY 2006-2010 strategic plan was released, the USMS
Director assigned each organizational unit’s senior management the task of
developing a Unit Performance Plan detailing how each unit would implement
the overall strategic plan and monitor the unit’s progress in implementing the
plan. 26 During our fieldwork, most senior managers were aware of the Unit
Performance Plans and provided us with copies of the plans for their districts.
Based on our review, it appeared that most of the districts had made
progress in developing these plans.

    Additionally, a senior USMS headquarters official involved in the
USMS’s strategic planning efforts stated that the responsibility for ensuring

           25
         Although the previous strategic plan was issued in 1997, the USMS did not
develop another strategic plan until this effort in FY 2006.
           26
                Organizational units include headquarters program offices, as well as district
offices.

                                         -9-
                              REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


that the Unit Performance Plans were complete, accurate, and meaningful
had not yet been assigned. For example, a senior district official told us that
local management did not take the Unit Performance Plan seriously, and that
they did not attempt to define objective, specific, and relevant performance
measures.

       To effectively implement the strategic plan, the USMS must ensure that
its program and district offices establish meaningful Unit Performance Plans.
We believe that the USMS should develop a process to ensure that the Unit
Performance Plans provide reasonable steps for implementing and monitoring
progress relative to the overall strategic plan.

Workforce Management Planning

       According to the USMS, in 1986 the USMS began using quantitative
methods to determine its resource needs. The USMS developed methods to
assess its ability to meet current workload levels according to acceptable
performance standards. In addition, the USMS has attempted to estimate
future changes in its workload resulting from changes in its environment,
including new legislation, new program initiatives, and resource changes in
other agencies. For example, as the number of federal law enforcement
agents increases, the number of individuals taken into custody is also likely
to increase and result in an increased workload for the USMS.

     In the formulation of its budgets for FYs 2000 through 2005, the USMS
primarily employed three workforce planning models.

Uncontrollable Workload Growth and Courthouse Personnel Models

       For the FY 2000 budget request, the Uncontrollable Workload Growth
Model was used, which attempted to predict the level of resources that the
USMS would need based upon staffing increases in other law enforcement
agencies, including the Federal Bureau of Investigation (FBI), Drug
Enforcement Administration (DEA), and United States Attorneys’ Offices
(USAO). The underlying theory for the model was that as these agencies
realize increases in staffing levels, the number of prisoners, court
appearances, fugitives, and seized assets would also increase and add to the
workload for the USMS. Additionally, the USMS augmented its resource
planning at that time through the use of the Courthouse Personnel Model,
which attempted to determine the number of additional positions needed to
provide security for locations in which new courthouses were being
constructed or existing courthouses were being expanded.




                               - 10 -
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


District Budget and Workforce Equalization Models

       Beginning with the FY 2002 budget request, the USMS began using a
third model, the District Budget Model (DBM), in conjunction with its two
existing models to formulate its budget request. 27 The DBM examines how
the USMS accomplishes its district office workload within the framework of
agency performance and safety practices. The model was initially developed
in-house by a working group of headquarters staff, U.S. Marshals, Chief
Deputy Marshals, and administrative officers.

       According to the USMS, the model uses mathematical formulas and
relationships to measure workload, taking into account performance, safety,
and geographical variables of the district offices. In developing the DBM, the
USMS established work standards by determining the length of time it takes
to complete various day-to-day functions (both operational and
administrative).

      The DBM addresses workload associated with “core” district activities,
including fugitive warrant investigations, courtroom and judicial security,
prisoner processing, prisoner transportation, and service of process.
However, certain activities, such as those related to the protection of
witnesses and special operations, are not included in the DBM calculations
because they are centrally managed at the headquarters level. The DBM
combines work standards and historical workload data from multiple sources
to generate the number of district personnel needed to accomplish the
USMS’s mission. The DBM projects staffing levels using 150 data inputs and
110 formulas.

       According to the USMS, because the DBM is based on historical
workload information, the resulting figures indicate the optimal level of
resources for that historical period. In light of this, the USMS supplements
the quantitative DBM model with qualitative information obtained from
district surveys. In addition, the USMS has adjusted the DBM figures to
incorporate known, future events that are not portrayed in the initial DBM
computations and will require additional resources.

      While the DBM represents optimal staffing, budgetary realities prevent
an optimal state from ever occurring. To compensate for this, the USMS
developed the Workforce Equalization Model (WEM), which sought to equalize
the proportion of staff for each district based on the amount provided for
USMS personnel in the annual budget. The USMS described the WEM as

      27
          The USMS used all three models until FY 2004 when USMS management decided
to stop using the Uncontrollable Workload Growth Model. According to USMS officials, the
model no longer suited the agency’s needs.

                                  - 11 -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


identifying what the agency can afford to provide each district if the available
positions were proportionally distributed according to the DBM. For example,
in one fiscal year of our review period, if applied according to the WEM, the
funding allowed for each USMS district office to be staffed at 73-percent. In
order to reach this level, offices with authorized positions above this threshold
may have been required to relinquish positions to other offices that were
operating below the 73-percent threshold. 28

       Many USMS district representatives believed the creation of the DBM
was a good starting point for determining the resource needs of district
offices. For example, one senior USMS official within the Management and
Budget Division expressed the opinion that the DBM provided an accurate
reflection of resource needs and was an effective budgetary tool that
assisted the USMS with supporting its budget requests with qualitative data,
as directed by the Office of Management and Budget.

       However, several USMS officials criticized the allocation process using
the DBM and WEM. Specifically, they expressed their displeasure that the
staffing levels identified by the DBM and WEM were never actually realized in
the district offices. Additionally, some were uncertain as to what items
factored into the DBM.

USMS Re-evaluation of Workforce Planning Models

       In January 2006, the USMS Director suspended use of the DBM and
the WEM in an attempt to ensure a more balanced approach to allocating
human and financial resources. The Director established a working group –
the Resource Allocation Advisory Board (RAAB) – to review current USMS
staffing and funding resource allocation processes and to recommend
improvements. The RAAB issued a report to the Director in June 2006 and
made several recommendations related to the DBM. In general, the RAAB
determined that the DBM was a valid and useful model for determining the
appropriate staffing requirements of the USMS’s district offices and the
USMS should continue to use it as a staffing model. 29

      The RAAB concluded, however, that the WEM’s threshold was not the
best way to reallocate positions. The RAAB suggested raising the threshold
at which offices would be required to relinquish positions to a minimum of

       28
          According to the USMS, reallocations generally involve vacant positions rather
than personnel relocations.
       29
         The RAAB also recommended that a review be conducted to properly allocate
headquarters resources because these positions are not included in the DBM.


                                   - 12 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


85 percent. By doing so, the RAAB stated that the USMS would avoid
deliberately placing a larger number of offices in unmanageable staffing
situations. In addition, the RAAB stated that the threshold could be adjusted
annually after USMS review of changes in workload and newly appropriated
positions. The RAAB also noted that because the DBM is a historical model
and is not predictive, data trends and district environmental factors should
play a larger role in allocation and re-allocation decisions.

     The RAAB noted that one strength of the DBM is its use of data from
automated systems that the USMS uses to track or conduct its missions
because it is unlikely that this data would be manipulated. The RAAB further
recognized the importance of data verification as a critical element of the
model’s integrity and suggested procedures for conducting data checks.

OIG Analysis of USMS Workforce Planning

      The USMS has initiated several efforts to develop quantitative models
to identify its resource needs in association with its workload. Further, the
USMS has proactively sought to improve its efforts to manage its personnel
resources through the revision and replacement of different models
throughout our review period.

       We concur with the overall findings of the RAAB and believe that the
USMS should continue to use the DBM and seek continual improvements to
its resource planning process. Moreover, we agree with the RAAB’s findings
that data validity is critical to the integrity of the staffing model. Resource
calculations that utilize inaccurate or unreliable data can undermine the
allocation decisions that result from these calculations.

      The USMS utilizes information from a number of data systems that
feed into the DBM and the USMS’s budget decisions to track and monitor
employee utilization and workload by function. While we did not perform an
analysis of each of the systems , we identified several areas of concern
regarding the accuracy and reliability of the data contained in three of the
systems – the USM-7, the Warrant Information Network (WIN), and the
Prisoner Transportation System (PTS).

      USM-7

     The USMS uses the USM-7 to track the amount of time spent by all
employees and some independent contractors performing various work-




                                - 13 -
                     REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


related activities. 30 The USM-7 supplies the DBM with data related to time
spent on certain activities. In addition, the USMS uses USM-7 personnel
resource utilization data in the annual budget development process.

      USMS personnel complete a USM-7 form every 2 weeks and record the
number of hours worked (tracked to the quarter-hour) to project codes that
are attributed to the type of function or duty being performed. For example,
for any 8-hour day a Deputy U.S. Marshal might record working 4 hours
apprehending fugitives, 2 hours transporting prisoners for court, and 2 hours
in annual leave status. The system relies upon the self-reporting of each
employee. Although the USMS requires supervisors to review staff
submissions, the data derived from the USM-7 system is only as valid as the
information reported by USMS personnel and reviewed by the supervisor.
The USMS considers the USM-7 system’s data to be the best way to assess
the actual time worked by USMS employees and independent contractors in
specific mission areas. Further, it is the only source of empirical USMS
employee resource utilization data.

       Program and Project Codes – When completing the USM-7 form,
individuals assign time to various project codes according to the types of
tasks they have performed, such as federal felony warrant investigations.
The USMS tracks its resource utilization by project codes, which is the
greatest level of detail contained in the USM-7. The USM-7 system is
designed so that each project code can be linked to a broader program code
associated with a USMS mission area. 31

       According to documentation provided by the USMS, there are
18 possible program codes in the USM-7. 32 However, we reviewed
USM-7 data and found that the database contained 80 different program
codes, as well as some timekeeping records for which no program code was
listed. We discussed this issue with USMS headquarters officials, who stated
that they believed these instances were errors of some sort. However, they
were uncertain as to how this field was populated, and wondered if it was a


       30
           Only independent contractors procured through personal services contracts record
their time on the USM-7. Independent contractors procured through national vendor
contracts and Court Security Officers do not record their time on the USM-7.
       31
          For example, a Criminal Investigator Deputy U.S. Marshal working on a 15 Most
Wanted Fugitive investigation would record the number of hours he or she spends
addressing that investigation to project code FWF2200F, which falls under the Fugitive
Warrants program code.
       32
            Appendix V contains a listing of all 18 program codes.


                                     - 14 -
                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


result of individuals typing in the wrong program code value or if the system
automatically populated this field based on other information entered.

       The USMS had a total of 1,607 project codes that were in existence
between FYs 2000 through 2005. USMS headquarters officials explained
that the USMS does not have distinct project code manuals for discrete time
periods and that project codes change frequently as new activities or duties
occur. Further, officials stated that all project codes do not apply to every
district office. When a specific event occurs and a project code is
subsequently created, USMS headquarters informs the applicable district
offices about the existence of the new project code.

       We reviewed the listing of project codes and found that many have the
same or very similar descriptions. For example, there are two project codes
(FWF2008F and FWF2009F) with the same description – Gulf Coast Regional
Task Force. 33 Because of this and the sheer number of available codes, we
question the ability of USMS employees to consistently select the correct
project code. In fact, we were informed by USMS personnel that if an
employee did not know which project code to use, they would attempt to
guess or ask a fellow deputy, supervisor, or the district’s administrative
officer. We believe that the USMS’s list of project codes could be reduced
significantly, which would result in more accurate time recording and
resource utilization analysis.

       At the conclusion of our audit, a USMS headquarters official stated that
not all 1,607 project codes were available for use during each fiscal year of
our review period. Specifically, this official stated that certain project codes
that were available for use in FYs 2000 through 2002 were not available for
use in FYs 2003 through 2005. The official further remarked that in any
given fiscal year of our review period, there were fewer than 250 project
codes available for use.

      We reviewed the data and did determine that no more than
231 project codes were utilized during any 1 given fiscal year of our review
period. However, while we were able to determine how many project codes
were used in each fiscal year, we were not able to determine how many
project codes could have been used in each fiscal year. Specifically, while
the USMS stated that no more than 250 project codes were available for
use, the USMS could not provide us with a listing of which project codes
were available for each fiscal year. Therefore, we were unable to determine

       33
           The Gulf Coast Regional Fugitive Task Force’s jurisdiction covers the district
offices located in Alabama and Mississippi. One of the project codes was to be used by the
task force members in Alabama, while the other was to be used by those working in
Mississippi.

                                   - 15 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


if more than 250 project codes were available during any fiscal year or
whether the project codes utilized in each fiscal year were active for those
fiscal years.

      At the conclusion of our audit, a USMS official spoke to this issue by
stating that the USM-7’s interface with the USMS’s payroll system prevented
personnel from charging time to discontinued project codes. However,
during fieldwork, USMS headquarters officials explained that instances have
occurred where individuals recorded time to project codes that were no
longer in existence and that they had to amend these records to reflect the
proper project codes. In light of this ambiguity, we believe it would be
worthwhile for the USMS to ensure that its timekeeping system has an
automated control in place to prevent time from being charged to project
codes no longer in existence.

       During additional analyses of USM-7 data, we found 171 instances
where the program and project codes were incorrectly associated. For
example, the USMS had project codes involving emergency operations that
were placed under the fugitive warrants program code. Moreover, USMS
analysts indicated that multiple program codes could be associated with the
same project code. For example, project code TERROTHP (Track Terrorism
Activity) at times corresponds to the “In Court with Prisoners” mission
activity, while in other instances it applies to the “Judicial/Other Protection”
mission activity. This illogical construct makes it impossible for the USMS to
distinctly identify efforts expended in each of its mission areas.

       We also identified at least 369 instances in which no project code was
recorded during FY 2005. As a result, USMS management officials
responsible for the analysis of the USM-7 data were uncertain as to which
mission or program area these work hours applied. Although this accounted
for only about 7,000 out of approximately 11.7 million total work hours, we
are concerned that if left unchecked this issue could contribute to an
inaccurate portrayal of resource utilization. Additionally, although USMS
officials stated that they would recognize if there were significant numbers of
records without project codes, there is no automated control in the USM-7 to
prevent a record from being created without a project code. Therefore, we
believe that implementing an automated control requiring active project
codes to be entered in order to record time would eliminate this issue and
assist the USMS in developing more accurate resource utilization data.

      USMS headquarters officials who review USM-7 utilization data
commented that program codes are essentially meaningless, and instead said
they focus on the individual project codes for any type of resource utilization
analysis. However, we believe that the USM-7 program codes can be of

                                - 16 -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


value to the USMS in determining its resource utilization. If coded accurately
and consistently, it would be relatively simple to determine how much time
was spent on each mission area. Instead, USMS personnel must review a
multitude of individual project codes, which we believe could be a very
arduous, time-intensive, and possibly unnecessary process.

      Each of these issues with USMS program and project codes contributes
to the lack of an accurate, consistent timekeeping system. This, in turn, can
result in inaccurate requests for resources because the USMS relies, in part,
on data from its timekeeping system for budgetary submissions. As a result,
the utilization data may portray more or fewer resources addressing certain
mission activities than the number actually involved in those areas.

       Contractor Utilization – The USMS utilizes a large number of contractors
at a significant cost to accomplish its various mission activities. Specifically,
in FY 2005 the USMS expended approximately $235.7 million to procure the
services of 3,862 Court Security Officers (CSO). For the same period, the
USMS expended an additional $18.5 million to procure the services of an
unknown number of personnel provided through contracts with national
vendors for guard services. Further, in FY 2005 the USMS expended almost
$10.5 million on 2,528 independent contractors who performed certain
activities, such as processing and transporting federal prisoners.

      Despite its extensive use of contractors, only contract guards obtained
through individual personal services contracts track their time in the USM-7,
which identifies specific activities through project codes. The USMS does not
have a mechanism for recording, in a similar manner, time worked by
contractors procured through national vendor contracts who perform many
of the same duties as operational personnel. 34 Instead, these types of
contractors use timesheets provided by the vendors who are responsible for
their maintenance. As a result, we are concerned that the USMS is unable
to completely define its total workload or the total level of effort expended in
each mission area in which contractors procured through national contracts,
excluding CSOs, are utilized. We believe that tracking the activity of these
types of contractors in a similar manner to USMS operational personnel
would benefit the USMS because it would provide a more accurate depiction
of the total level of effort needed to accomplish the many functions of the
USMS.

       34
           According to USMS officials, contracts for CSOs, which are funded by the
Administrative Office of the U.S. Courts, are very detailed with clearly defined duties.
Further, USMS officials stated that USMS district Contracting Officer Technical
Representatives monitor the activity of CSOs in their districts to ensure that the activities
defined in the contracts are fulfilled.


                                    - 17 -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


       Warrant Information Network

        The WIN is a computer-based, automated system used to manage
records and information collected during investigations of fugitives and
potential threats directed at the federal judicial system. It contains both
historical and current case data for all USMS investigations. All USMS
facilities, including district offices, headquarters, and foreign offices, have
access to the WIN. The system has several capabilities including the ability
to: (1) enter, collate, and retrieve case information, including photographs;
(2) access and interface with the FBI’s National Crime Information Center;
(3) assign cases to staff; and (4) notify district offices of action to take on
shared investigations.

       The OIG previously reviewed the WIN and identified vulnerabilities in
16 of the 17 areas used to assess management, operational, and technical
controls in information systems. 35 While our analysis was not intended to
verify the accuracy of the system, certain irregularities came to our attention
during our analysis of the WIN data. Although these inconsistencies
accounted for less than 1 percent of the total number of records contained in
the data file we reviewed, we believe these errors, if left unchecked, could
affect the overall accuracy of the system. 36 According to a USMS
headquarters official, the USMS performs various reviews of data in the WIN
throughout the year. However, our identification of these inconsistencies
indicates that the system does not have adequate automated controls to
ensure that these types of errors do not occur in the future and do not
negatively affect USMS planning efforts. These issues are as follows:

   •   According to USMS officials, every warrant should contain a code
       assigning it to a district office. However, we identified 35 records that
       did not contain codes assigned to district offices. Instead, these
       warrants were assigned to USMS headquarters. 37

   •   Similarly, when a warrant is closed a district office should be
       associated with that closure. We identified an additional 46 warrant
       records that were listed as being closed by a headquarters component,
       not a district office.37

       35
          Department of Justice, Office of the Inspector General. The United States
Marshals Service’s Warrant Information Network, Audit Report 03-03, November 2002.
       36
            Appendix I contains detailed information on all USMS data we reviewed.
       37
          At the conclusion of our audit, a USMS headquarters official stated that as of
FY 2005, foreign fugitive warrants can be entered into the WIN by a USMS headquarters
component.

                                    - 18 -
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



   •   In addition to cataloging fugitive warrants, the WIN also tracks their
       status. Our review of the data file revealed that there were 38 records
       that were not in a closed status, but had a valid warrant closed date.

   •   The USMS uses an execution code to indicate the reason for closing a
       particular warrant record, such as a physical arrest by the USMS or the
       transfer of a warrant to another agency. We identified 113 fugitive
       warrant records in the data file with execution codes for non-fugitive
       warrant investigations.

       Prisoner Tracking System

       The PTS was implemented by the USMS in March 1993 to maintain
tracking information for federal prisoners and to monitor those prisoners in
various detention facilities. The PTS is also used as an informational and
scheduling tool. For instance, the PTS contains information specific to each
individual prisoner, including the prisoner's personal data, property, medical
information, criminal information, and location. Additionally, PTS
information assists USMS personnel in locating prisoners to be transported
for court appearances. Moreover, this system catalogs the USMS’s activity
during the day-to-day processing and disposition of prisoners.

       USMS headquarters officials stated that there are inconsistencies in how
the 94 district offices utilize the system. Further, because of administrative
staff shortages within the district offices and the increasing volume of
prisoners, USMS headquarters officials stated that many prisoner movements
are not entered into the PTS. A USMS official estimated that the district offices
are capturing only about 80 percent of their prisoner transports. Our review of
PTS information revealed an example of this lack of data entry. According to
data in the PTS, the USMS D.C. Superior Court office performed 52 prisoner
movements during FY 2000. The number of prisoner movements recorded
progressively increased from one fiscal year to the next, reaching 5,625 in
FY 2004 and 34,503 movements during FY 2005. According to USMS officials,
this dramatic increase in prisoner movements was a result of a change in the
USMS D.C. Superior Court office’s method for processing prisoners, which
resulted in more data captured in the PTS, rather than a dramatic increase in
the number of prisoner movements. We believe that the USMS needs to
address this known inconsistent use of the PTS to help ensure that the system
provides accurate workload data for the agency’s management and planning
activities. Without accurate data, the USMS runs the risk of making ill-
informed resource request and allocation decisions.



                                - 19 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


        We reviewed over 4 million PTS records, encompassing data for all
district offices for the period FYs 2000 through 2005. We found
179,330 records (which accounts for approximately 5 percent of all records
reviewed) that reflected a prisoner identification number of “0.” According
to USMS officials, these instances reflect “unknown” prisoners. In other
words, the person did not have a USMS prisoner identification number
because the individual was not yet in USMS custody. However, a “0” was
entered into PTS for scheduling purposes in order to notify USMS staff that
an individual might need to be processed after the hearing. USMS officials
informed us that these records are excluded from analyses performed by its
Management and Budget Division. In our opinion, excluding these instances
from budget and workforce planning computations does not present an
accurate assessment of the USMS’s prisoner-related workload. Because
prisoner movements represent a significant workload indicator for the USMS,
it is critical for workforce planning that this system is as accurate as
possible.

      Although the problems identified with the USM-7, WIN, and PTS data
do not account for a significant portion of the total records, we believe that,
if uncorrected, they could have a significant effect on the operations of the
USMS. Because these data systems directly feed the DBM and the USMS
budget development process, we are concerned that the USMS may be
basing its resource request, allocation, and utilization decisions on
inaccurate and inconsistent data. If the systems from which the USMS
obtains data to perform its planning activities are not reliable, then the
USMS cannot accurately identify its needs within individual mission areas
and cannot effectively plan for its future.

Chapter Summary

      In reviewing the USMS’s workforce planning processes, we found that
the USMS has taken steps to improve its strategic planning and develop
quantitative models to determine its resource needs in association with its
workload. However, the USMS needs to take further steps to ensure that its
strategic plan is more aggressively promoted and its Unit Performance Plan
process is fully implemented.

      To improve its workforce management planning, a USMS working
group recently completed a review of the current model. This group
concluded that the DBM was a valid tool to assess staffing requirements, in
part because this model relies on data from automated systems that it
believed to be accurate. We concur that data verification is important in
developing an effective allocation model, but believe the USMS must do a
better job of ensuring the integrity of its data systems.

                                - 20 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE



       We found several areas of concern regarding the accuracy and
consistency of the data contained in the USM-7, WIN, and PTS, all of which
contribute to the DBM and the budgetary process. For example, we noted
numerous deficiencies in the USM-7 database, which tracks resource
utilization, including missing, poorly defined, and an excessively large
number of project codes, as well as undefined program codes. Our review of
WIN identified missing district office markers, improper status indicators,
and improper use of system codes. Finally, we found that district offices
were not recording prisoner movements in PTS consistently. These errors
and inconsistencies could affect the USMS’s planning decisions and result in
an inefficient use of personnel resources.

Recommendations

We recommend that the USMS:

     1.    Ensure that the USMS’s strategic planning efforts are improved
           through oversight of the Unit Performance Plan initiative and
           stronger promotion of the strategic plan by district management.

     2.    Improve its time reporting system and ensure the integrity of
           system data by: (1) allowing for the tracking of time by the
           minimum number of project codes necessary; and
           (2) implementing an automated control to ensure that all records
           entered into the time reporting system contain an active project
           code.

     3.    Ensure it has a reliable, standardized process of tracking, by
           activity, the time of contractors procured through national
           vendor contracts (other than CSOs). The process should enable
           the USMS to generate cumulative reports of such activity so that
           the USMS is able to determine the total number of resources it
           requires to accomplish its various mission activities.

     4.    Implement adequate automated controls into the WIN to ensure
           that: (1) warrants that have valid warrant closing dates are in a
           closed status, and (2) fugitive warrants are assigned a proper
           execution code when closed.

     5.    Perform regular reviews of PTS to ensure the accuracy of the
           information contained within this system.




                               - 21 -
                    REDACTED FOR PUBLIC RELEASE
             REDACTED FOR PUBLIC RELEASE


6.   Review alternative options for assigning prisoner identification
     numbers within PTS to ensure that all prisoner movements are
     accurately tracked.




                        - 22 -
             REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


        CHAPTER 3: USMS RESOURCE UTILIZATION AND
                       WORKLOAD
       In this chapter, we review the USMS’s efforts to execute and evaluate
its performance relative to its workforce. While the USMS uses several
information technology systems to track resource utilization and workload, we
found that it does not allocate resources to district offices for specific
activities, nor does it routinely review how the utilization of its resources
affects all aspects of USMS operations. Instead, district offices receive
general allocations of operational and administrative positions. As a result,
the USMS cannot definitively determine if its resources are being appropriately
used in line with its varying priorities and responsibilities, nor can it ascertain
how efficiently it is achieving its organizational objectives.

       We conducted an in-depth examination of the USMS’s use of its
personnel resources and the workload addressed between FYs 2000 and
2005 to determine if staff were utilized in line with USMS priorities. We
found that in FY 2005 the USMS expended the largest portion of its
operational workforce on its highest priority – judicial and courthouse
security matters. However, we found that although the USMS stated that
investigating judicial threats, which is a task within the broad area of judicial
and courthouse security, is a high priority and indicated the workload was
rising and significant resources were being expended, USMS data indicates
that minimal resources were utilized on protective investigations in FY 2005.

       We obtained this data from the USMS’s automated system, and as
noted in Chapter 2 we identified several concerns with the accuracy and
reliability of the data contained within the USMS’s automated systems.
However, we believe that the overall results presented in this chapter have
utility for examining the USMS’s resource utilization and workload.

USMS Resource Utilization

       To determine the specific mission areas in which the USMS concentrated
its efforts during the scope of our audit, we reviewed data from the USM-7,
and organized it into six categories, as displayed in Exhibit 3-1. 38

       38
            As noted, each individual assigns time to a project code according to the task they have
performed. The USMS had 1,607 project codes in existence between FYs 2000 and 2005. The USMS
stated that not all 1,607 codes were available for use during each year; however, the USMS could not
identify the specific project codes available for use during each fiscal year. Because the USMS has no
formalized system by which it assigns project codes to specific mission activities, we considered input
provided by USMS personnel and manually assigned each project code to a mission activity. With the
assistance of USMS personnel, we further categorized the data by organizing the USMS’s mission activities
in accordance with the five areas that the agency has recently proposed to use in budget formulation. We
added the category entitled “Other” to capture data that did not correspond with one of these five areas
(called decision units). We presented this to USMS personnel, and they concurred with our groupings.

                                     - 23 -
                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                       EXHIBIT 3-1
USMS DECISION UNITS AND CORRESPONDING PROGRAM ACTIVITIES

              Decision Unit                                      Program
                                                              Court Security
                                                        In Court with Prisoners
                                                       Judicial/Other Protection
 Judicial and Courthouse Security
                                                 Judicial Protection without Prisoners
                                                          Threat Investigations
                                                  Protection of the Judicial Process 39
                                                            Fugitive Warrants
        Fugitive Apprehension                                 Seized Assets
                                                            Service of Process
                                                         Community Detention
                                                     Receipt/Process of Prisoners
Prisoner Security and Transportation
                                                          In-District Movement
                                                      JPATS Prisoner Movements
       Protection of Witnesses                               Witness Security
                                                         Emergency Operations
            Operations Support                                Missile Escort
                                                           Special Operations
                                                        Information Technology
                 Other 40                           Management & Administration
                                                                Unknown

      We found that, during most of our review period, the USMS utilized the
largest portion of its operational personnel on its primary mission area,
Judicial and Courthouse Security. The only exception to this occurred in
FY 2003, when the USMS utilized the largest portion of its operational
personnel on Other matters, which according to the USMS occurred as a
result of the agency’s significant hiring push in FY 2003. 41 The USMS had

       39
            “Protection of the Judicial Process” is not one of the 18 program codes or mission
activities used by the USMS. According to USMS officials, there were some project codes
that applied to more than one mission activity. In these instances, the USMS categorized
them under this name. Therefore, we considered utilization data pertaining to this category
to be part of the “Judicial and Courthouse Security” decision unit.
       40
         The “Other” category includes two USMS mission activities (Information
Technology and Management & Administration) that do not correspond to one of its five
proposed budgetary decision units. Additionally, this category includes those areas that the
USMS was uncertain to which decision unit the activities applied.
       41
       New USMS recruits attending basic training record their time on the USM-7 to a
management and administration project code related to training.

                                   - 24 -
                        REDACTED FOR PUBLIC RELEASE
                                                       REDACTED FOR PUBLIC RELEASE


1,006 operational full-time equivalent (FTE) positions addressing Judicial and
Courthouse Security matters during FY 2000. 42 This increased to 1,129 FTEs
during FY 2005 – an increase of 12 percent. Similarly, between FYs 2000
and 2005 the USMS utilized a significant portion of its workforce on Fugitive
Apprehension matters. The USMS’s utilization of resources in this area
increased from 781 FTEs in FY 2000 to 1,060 during FY 2005, an increase of
36 percent. Exhibit 3-2 displays the number of USMS operational FTEs
working in each decision unit over the course of our review period.

                                                          EXHIBIT 3-2
                                            USMS OPERATIONAL PERSONNEL UTILIZATION
                                                FISCAL YEARS 2000 THROUGH 2005
                                                Judicial & Courthouse Security       Fugitive Apprehension
                                                Prisoner Security & Transportation   Protection of Witnesses
                                                Operations Support                   Other


                                    1,200


                                    1,000
      Full-Time Equivalents (FTE)




                                     800


                                     600


                                     400


                                     200


                                       0
                                             FY 2000      FY 2001       FY 2002      FY 2003       FY 2004     FY 2005
                                    Source: OIG analysis of USM-7 data

      In sum, the USMS expended 1,129 operational FTEs on Judicial and
Courthouse Security matters during FY 2005, while using 1,060 operational
FTEs on Fugitive Apprehension matters during this same period. These two
areas accounted for 56 percent of the USMS operational workforce.

             42
           Individual USMS operational employees may record a percentage of their daily
time on several different activities during the course of a single day or year. This means
that a single FTE does not necessarily indicate 1 individual worked an entire year on a single
matter; it could indicate that 4 employees each worked 25 percent of their time during the
year on that specific matter. Yet in both cases the data would indicate that 1 FTE worked
on that matter for the entire fiscal year.


                                                                  - 25 -
                                                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


USMS Workload

      To accompany our analysis of the USMS’s resource utilization, we
reviewed data related to selected areas of the USMS’s workload to identify
the number and types of fugitive warrant investigations, the number of
prisoner movements, and the number of matters related to potential threats
against the federal judicial system that the USMS handled during our review
period. We examined data between FYs 2000 and 2005 to identify workload
changes in these areas.

Fugitive Apprehension

      We analyzed the USMS’s WIN system to determine the total number of
warrants opened or received by the USMS during each fiscal year of our
review period, as well as those closed or cleared during the same timeframe.
From our analysis, we determined that the USMS received 102,371 warrants
during FY 2000, and 148,693 in FY 2005, resulting in an overall increase of
46,322 warrants, or 45 percent. Similarly, the USMS closed over 56,500
more warrants in FY 2005 than in FY 2000 (94,038 warrants closed during
FY 2000 rising to 150,560 warrants closed during FY 2005) – an increase of
60 percent.

      We further reviewed the data according to the three types of warrants
received by the USMS: Class I, Class II, and Other warrants.

•      Class I warrants consist of federal felony offenses for which the USMS
       is primarily responsible. 43 Examples of Class I warrants include
       escaped federal prisoners, parole violators, and felony warrants that
       are based on investigations by agencies without powers of arrest.

•      Class II warrants consist of federal misdemeanor offenses for which
       the USMS is primarily responsible, as well as federal felony offenses
       for which other law enforcement agencies maintain responsibility.

•      Other Warrants consist of state and local fugitive cases.

       As presented in Exhibit 3-3, we compared the proportion of the total
number of warrants received in each category in FY 2000 to those received
in FY 2005. As reflected in this exhibit, the composition of the USMS’s
fugitive warrant workload has changed significantly from FY 2000 to

       43
           In 1988, the Attorney General issued a fugitive apprehension policy. Among
other items, the policy states that the FBI and DEA shall have apprehension responsibility
on all arrest warrants resulting from their own investigations.


                                   - 26 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


FY 2005. During FY 2000, 20 percent of the warrants received by the USMS
were state and local warrants. However, for FY 2005 the proportion of state
and local warrants increased to 43 percent of the total warrants received.
According to USMS officials, this significant increase in state and local
warrants is primarily the result of the USMS’s establishment of Regional
Fugitive Task Forces. 44

                               EXHIBIT 3-3
              TYPES OF WARRANTS RECEIVED AS A PERCENTAGE OF
                         TOTAL WARRANT OPENINGS
                            FISCAL YEARS 2000 AND 2005

            CLASS I WARRANTS     CLASS II WARRANTS        STATE/LOCAL WARRANTS

                  FY 2000                                       FY 2005




                                                                         30%
                         49%
                                                          27%
            31%

                                                                         43%
                    20%

    Source: OIG analysis of WIN data

      We also reviewed warrant closures. We found that the number of
Class I and other warrants closed by the USMS increased from FY 2000 to
FY 2005, while the number of Class II warrants closed declined during the
same time period. Similarly, the most noticeable change occurred in the
number of other, or state and local, warrants closed by the USMS. The
USMS closed 45,622 more state and local warrants during FY 2005 than in
FY 2000 – increasing from 19,535 warrants in FY 2000 to 65,157 in FY 2005.
The results of this analysis mirror those identified with the change in
USMS warrants received by category and indicate that the USMS is
performing more work on state and local warrants.


       44
          The Presidential Threat Protection Act of 2000 established Fugitive Apprehension
Task Forces in designated regions of the United States. The task forces consist of federal,
state, and local law enforcement authorities and are directed and coordinated by the USMS.
As of FY 2007, there were six Regional Fugitive Task Forces.

                                   - 27 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


Prisoner Security and Transportation

      The USMS is responsible for transporting prisoners to and from court
appearances as well as to health care facilities. Based on our analysis of data
from the PTS, the number of prisoner movements recorded by the USMS
increased between FYs 2000 and 2005, as did the number of prisoners
handled, which are reflected in the following exhibit.

                            EXHIBIT 3-4
           PRISONER MOVEMENTS RECORDED BY THE USMS AND
                  PRISONERS HANDLED BY THE USMS
                  FISCAL YEARS 2000 THROUGH 2005

                                Prisoner Movements      Prisoners Handled
            850,000


            800,000


            750,000


            700,000


            650,000


            600,000


            550,000


            500,000
                      FY 2000    FY 2001    FY 2002    FY 2003    FY 2004    FY 2005
           Source: OIG analysis of PTS data

     Specifically, we found that the USMS recorded 587,544 prisoner
movements in FY 2000 and 807,476 movements in FY 2005 – an increase of
almost 220,000 movements, or 37 percent. Further, we determined that the
USMS reported handling 532,148 prisoners during FY 2000 and
705,341 prisoners during FY 2005. 45 This computes to an overall increase of
173,193 prisoners, or 33 percent, transported by the USMS.

      45
            In analyzing the number of prisoners handled by the USMS, we concentrated our
efforts on determining the number of unique prisoners transported by the USMS on a daily
basis. The same prisoner may be moved multiple times during the same day, such as for
an initial court appearance and then for a meeting with an attorney. In this instance, we
would consider that the USMS handled one prisoner during the day.

                                   - 28 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


      According to USMS headquarters officials, these increases are caused
partly by a growth in prisoner population and partly by the increased use of
the PTS. 46 The USMS stated that its average daily prisoner population was
34,531 during FY 2000 and 53,446 during FY 2005, which equated to a
55 percent growth.

Potential Threats to the Federal Judicial System

       The USMS addresses potential threats to federal protectees, including
federal judges, prosecutors, jurors, and other court personnel. The USMS
conducts a protective investigation primarily in response to inappropriate
communications or direct threats. 47 Using data from the WIN system, we
determined that the total number of potential threats reported to USMS
district offices more than doubled from FY 2000 to FY 2005. Specifically, we
computed that USMS district offices received information on 703 potential
threats during FY 2000, while receiving 922 in FY 2005 – an overall increase
of 219 potential threats, or 31 percent. According to USMS officials, a
portion of this increase can be attributed to the USMS’s efforts in educating
the judiciary on security-related topics and the USMS’s responsibilities
related to these matters.

       Subsequent to our analyses of FYs 2000 through 2005 potential threat
data, we obtained and performed similar analyses on data from FY 2006.
We found that between FYs 2005 and 2006, the USMS experienced a
14-percent increase in the number of potential threats reported to USMS
district offices. Moreover, the USMS received 349 more potential threats in
FY 2006 than in FY 2000, an overall increase of 50 percent. Exhibit 3-5
illustrates the number of potential threats reported to USMS district offices
from FYs 2000 through 2006.




      46
          As reported in Chapter 2, USMS headquarters officials remarked that there were
inconsistencies in how district offices recorded information in the PTS.
      47
           According to the USMS, an inappropriate communication is “any communication in
writing, by telephone, verbally, through an informant, or by some suspicious activity that
threatens, harasses, or makes unsettling overtures of an improper nature directed toward a
USMS protectee.” Additionally, a threat is “any action, whether explicit or implied, of an
intent to assault, resist, oppose, impede, intimidate, or interfere with any member of the
federal judiciary, or other USMS protectee.” For purposes of this report, we refer to all
inappropriate communications/threats as “potential threats.”

                                  - 29 -
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                          EXHIBIT 3-5
     POTENTIAL THREATS REPORTED TO USMS DISTRICT OFFICES
               FISCAL YEARS 2000 THROUGH 2006 48


                                                                           1,052

                                                                  922



                 703      697                           678
                                              591
                                    545




               FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006
              Source: OIG analysis of WIN data

USMS Efforts to Monitor and Assess its Performance

      The USMS does not allocate resources among its district offices
according to specific mission areas, such as fugitive apprehension. Instead,
the authorized positions are allocated among two position types –
operational and administrative. Therefore, each district is allocated a “pool”
of operational and administrative resources that the U.S. Marshal may utilize
as he or she deems appropriate.

      According to several management officials at USMS headquarters and
the district offices we visited, they do not review overall resource utilization
reports related to the activities and personnel for which they are responsible
because they know how their resources are being used. Instead, they




       48
           Because we focused on district office workload, we based our analysis of potential
threats on the dates they were reported to USMS district offices. In contrast, the OPI bases
its count of potential threats on the date the potential threat is reported to the OPI. For
example, a potential threat may be reported to a USMS district office in September 2005 but
not reported to the OPI until October 2005. In such a case, we would include this potential
threat in our FY 2005 total, while the OPI would include this threat in its FY 2006 total. The
OPI’s reported figures for our review period were 683 in FY 2000, 629 in FY 2001, 565 in
FY 2002, 585 in FY 2003, 674 in FY 2004, 953 in FY 2005, and 1,111 in FY 2006.

                                    - 30 -
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


examine work-hour reports related to certain types of work hours, such as
overtime, and specific assignments, such as the Moussaoui trial. 49

       Throughout our audit, several USMS officials described how they
believed the USMS was expending its personnel resources and the types and
amount of work performed. However, we identified discrepancies between
our analyses of USMS resource utilization and casework and the descriptions
provided by various USMS personnel. We believe that these discrepancies
help to illustrate that periodic reviews of resource utilization would be
beneficial to USMS management to ensure that the USMS is appropriately
addressing priority tasks. Regular reviews would also help to ensure that
the USMS is using the most accurate personnel and workload data possible
in its resource planning processes.

Protective Investigations 50

      In the past few years, incidents including the murder of family
members of a federal judge in Chicago, Illinois, as well as a shooting within
a Georgia state courthouse, have raised the visibility and importance of
investigating potential threats to court personnel. Congress has recognized
this potential threat by funding the installation of home security systems for
every federal judge, a project which is currently being overseen by the
USMS. This is also reflected by the statements of several USMS officials,
including the Director, who stated that the investigation of threats against
the federal judiciary is a top priority of the agency.

      Based upon the emphasis placed on this responsibility, we expected
there to be a significant number of FTEs utilized in this area. However, we
found that the USM-7 data reflects that it utilized just 24 FTEs on protective
investigations during FY 2005, which includes all 94 district offices and
headquarters, including the Office of Protective Intelligence (OPI). 51



       49
          Zacarias Moussaoui is a French citizen of Moroccan descent who was convicted of
conspiring to kill Americans as part of the September 11, 2001, terrorist attacks. Tried in
the Eastern District of Virginia, he was sentenced on May 4, 2006, to life in prison.
       50
           According to USMS officials, investigations of threats involving the federal
judiciary are referred to as “protective investigations,” although the USM-7 project code
refers to them as “threat investigations.”
       51
           Established in February 2005, the mission of the OPI is to provide the USMS with
aggressive and proactive protective investigation analyses. The OPI collects, analyzes, and
disseminates information about groups, individuals, and activities that pose a potential
threat to persons and property protected by the USMS.


                                   - 31 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


Additionally, according to the USMS data, approximately 1 of the 24 FTEs
reflected work performed by USMS headquarters personnel.

      When discussing the results of our analysis with an OPI official, he
stated that he believes the amount of work in this area must have been
underreported by USMS personnel. According to this official, the OPI had
approximately five employees working solely on protective investigation
matters during FY 2005. He further remarked that each district assigns its
personnel to protective investigations based on what district management
deems appropriate, and that some districts have specific squads detailed to
this duty.

      Despite the OPI official’s belief that the figures were underreported, it
is conceivable that only 24 FTEs in the entire USMS worked on judicial
threats during FY 2005. According to several USMS district office
representatives, personnel have not been able to devote as much time to
protective investigations as needed because they often have to assist with
other court-related duties. For example, a USMS official from [SENSITIVE
INFORMATION REDACTED] commented that the caseload of [SENSITIVE
INFORMATION REDACTED] addressing protective investigations ranged from
10 to 45 cases each. [SENSITIVE INFORMATION REDACTED]

      Subsequent to the completion of our analysis, we obtained updated
FTE data for the USMS’s FY 2006 activities related to protective
investigations. We found that the number of USMS personnel addressing
protective investigations only marginally increased from 24 FTEs in FY 2005
to 28 FTEs in FY 2006.

      Based on our review, we found a great deal of uncertainty in the
amount of work the USMS is performing in the area of protective
investigations. We believe that the USMS should examine the use of its
resources in this area and determine if the appropriate level of effort is being
expended.

      We also identified a backlog with headquarters’ review of potential
threats. To assist in assessing risk and to help prioritize work, USMS
headquarters is responsible for reviewing information related to each




                                - 32 -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


potential threat and assigning a threat-level rating.52 This rating is reflected
in the WIN system. During our review of threat-related data in the WIN
system, we identified 211 FY 2005 records with a rating of “0.” According to
the USMS, this is the default value recorded until the analysis is completed.
The 211 unrated records as of October 2006 represent 23 percent of the
922 total potential threats recorded in FY 2005.

       When we presented information on the missing mosaic ratings to a
senior analyst assigned to the OPI, which is the unit responsible for
identifying the ratings, the analyst stated that the office is continually short-
staffed and that the unit is simply not able to review every potential threat
in a timely manner. While the unit was aware that a backlog existed, the
senior analyst expressed surprise at the extent of the backlog that we
identified and stated that it would be helpful if the unit performed analyses
similar to ours. When we subsequently analyzed FY 2006 threat-related
casework data, we noted a similar backlog with USMS headquarters’ review
of potential threats. Specifically, we found that 766 (or 73 percent) of the
1,052 total potential threats recorded in FY 2006 had not been assigned a
mosaic rating as of March 2007. However, at the conclusion of our audit, a
USMS official informed us that the agency had resolved the entire backlog as
of March 2007. 53

      In addition, during our review, we identified a delay from the dates
some potential threats were reported to USMS district offices and the dates
that the district offices entered them into the WIN. The recording delays
dated back to FY 1994, although the majority of the delays were 1 fiscal
year in duration. The following table exhibits these delays.




       52
           During our review period, the USMS used a rating system referred to as the
mosaic rating. This rating system applied an algorithmic formula to answers for
31 multiple-choice questions. While this tool was used to assist in addressing protective
investigations, the USMS stated that it did not imply that inappropriate communications
with low or moderate threat levels were not handled. Instead, the USMS remarked that all
inappropriate communications are to be investigated and assessed commensurate with the
threat level.
       53
          According to the USMS, it was not necessary to perform mosaic analyses on these
cases in order to resolve them because the cases had already been closed by district offices
without requests from district offices to the OPI for further analysis. Additionally, utilizing
personnel to perform analyses on cases that had been determined by district offices to not
be credible would be an inefficient use of resources.

                                    - 33 -
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                            EXHIBIT 3-6
               PRIOR FISCAL YEAR POTENTIAL THREATS
              RECORDED IN FISCAL YEARS 2005 OR 2006
              Recorded in FY 2005                Recorded in FY 2006
            Fiscal Year                        Fiscal Year
                           Number of                         Number of
            Threat was                         Threat was
                            Threats                           Threats
             Reported                           Reported
             FY 1994           0                FY 1994           1
             FY 1995           0                FY 1995           1
             FY 1996           1                FY 1996           1
             FY 1997           1                FY 1997           1
             FY 1998           0                FY 1998           4
             FY 1999           0                FY 1999           0
             FY 2000           1                FY 2000           1
             FY 2001           1                FY 2001           1
             FY 2002           3                FY 2002           0
             FY 2003           1                FY 2003           1
             FY 2004          20                FY 2004           1
             FY 2005          N/A               FY 2005          40
              TOTAL           28                 TOTAL           52
           Source: OIG analysis of USMS threat-related data.

       The OPI offered two possible reasons for the delays noted in the
preceding exhibit. Prior to FY 2005, both USMS district personnel and
members of the federal judiciary did not fully understand what constituted
potential threats and what the responsibilities were for addressing them. To
remedy this, the USMS provided several training sessions on protective
investigations to its personnel in FYs 2005 and 2006. Upon completion of
this training, USMS district personnel reviewed dated materials and entered
previously unreported potential threats into the WIN. Additionally, the OPI
speculated that data entry errors made by USMS district personnel
contributed to these delays. Specifically, one common error occurred when
USMS district personnel entered the same person as both the victim and the
source of the potential threat. In order to correct this problem, each record
in error had to be deleted and re-entered into the data system, thus
reflecting a more recent date of entry. According to the OPI, changes to the
WIN have been made that now prevent this data entry error.

Fugitive Apprehension

     According to USM-7 data, the USMS had 664 operational FTEs
addressing fugitive apprehension matters during FY 2000, which increased to
981 operational FTEs during FY 2005 – an increase of 317 FTEs, or
48 percent. This significant increase in FTEs performing fugitive-related

                                - 34 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


work is consistent with the increase we identified in the USMS’s fugitive
warrant workload. We found that the total number of fugitive warrants
received by the USMS had increased by 45 percent from FY 2000 to
FY 2005. Similarly, the USMS closed 60 percent more warrants in FY 2005
than in FY 2000.

       In contrast to the perceived correlation between the significant
increase in FTEs addressing fugitive-related matters and the increase in
fugitive warrant workload, several individuals from the district offices we
reviewed had contradictory viewpoints on the USMS’s fugitive apprehension
efforts. With the exception of [SENSITIVE INFORMATION REDACTED],
personnel from each of the district offices we visited informed us that their
fugitive apprehension activity had suffered during the past few years.
Additionally, many of these district offices were not able to devote as many
deputies to conduct fugitive apprehension work in FY 2005 as they had in
FY 2000 even though their fugitive warrant workload had increased during
this time. Instead, they commented that deputies often were pulled from
fugitive investigations to assist with myriad court-related duties, causing a
backlog on fugitive-related matters. USMS officials from [SENSITIVE
INFORMATION REDACTED] also commented that they had encountered a
backlog with their fugitive warrant workload due to a reduction in
administrative personnel that caused deputies to perform administrative
duties rather than conducting fugitive investigations.

       This discrepancy between statements of USMS personnel and our
review of empirical data again raises the question of whether work hours are
being recorded accurately and if the USMS truly knows how its resources are
being used. Exhibit 3-7 identifies the resource utilization changes of
operational personnel performing fugitive-related work within the seven
district offices where we conducted fieldwork. As shown, the Central District
of California and Southern District of Florida had more deputies involved in
fugitive-related matters during FY 2005 than during FY 2000, which is
contradictory to statements made by officials at these districts.




                               - 35 -
                    REDACTED FOR PUBLIC RELEASE
                             REDACTED FOR PUBLIC RELEASE


                                        EXHIBIT 3-7
             USMS OPERATIONAL UTILIZATION ON FUGITIVE WARRANTS
                              FISCAL YEARS 2000 AND 2005 54
                                   FY 2000    FY 2005   Change in Change in
District Office
                                    FTEs        FTEs      Number   Percent
Central District of California        18         25         7        39%
D.C. Superior Court                   19         18         -1       -5%
District of Rhode Island               3          5         2        67%
Northern District of Illinois         15         11         -4      -27%
Southern District of Florida          19         22         3        16%
Southern District of New York         21         17         -4      -19%
Western District of Texas             20         49         29      145%
Source: OIG analysis of USM-7 data


          We reviewed the changes in fugitive warrant workload within these
   district offices to determine if there was any correlation between the change
   in FTEs addressing fugitive-related matters and the change in fugitive
   warrants closed. Exhibit 3-8 presents information on fugitive warrants
   closed. In all instances, a district office that experienced an increase in the
   number of FTEs addressing fugitive investigations also had an increase in the
   number of warrants closed. Likewise, one district office (D.C. Superior
   Court) that used fewer operational FTEs during FY 2005 than during FY 2000
   on fugitive-related matters closed fewer fugitive warrants over this same
   period of time. However, there were some exceptions, namely in the
   Northern District of Illinois and the Southern District of New York. The
   USM-7 data indicated that each of these district offices utilized four fewer
   FTES on fugitive matters in FY 2005 than in FY 2000. In contrast, the
   number of warrants closed in these districts increased between FYs 2000
   and 2005.




          54
              Between FYs 2002 through 2003, the USMS established Regional Fugitive Task
   Forces covering four of the seven district offices listed in this exhibit – Central District of
   California, D.C. Superior Court, Northern District of Illinois, and Southern District of
   New York.

                                        - 36 -
                             REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE


                                       EXHIBIT 3-8
                           USMS FUGITIVE WARRANTS CLOSED
                               FISCAL YEARS 2000 AND 2005
                                                          Change in                  Change in
District Office                     FY 2000    FY 2005
                                                           Number                     Percent
Central District of California       1,684       2,879      1,195                       71%
D.C. Superior Court                  3,295       2,044      -1,251                     -38%
District of Rhode Island              283         342         59                        21%
Northern District of Illinois         936        3,985      3,049                      326%
Southern District of Florida         2,472       3,168       696                        28%
Southern District of New York        1,699       1,881       182                        11%
Western District of Texas            4,548       6,129      1,581                       35%
Source: OIG analysis of WIN data


          We believe that these inconsistencies illustrate that periodic reviews of
   resource utilization and workload statistics can provide USMS management
   with valuable information. For instance, as discussed USMS data indicated
   that the Southern District of New York utilized fewer operational FTEs on
   fugitive investigations during FY 2005 as compared to FY 2000, yet the
   USMS data also revealed that it had closed a significant number of fugitive
   warrants during this timeframe. Assuming that these figures are accurate,
   the Southern District of New York could be using a “best practice” technique
   to efficiently and effectively address its fugitive apprehension work.

   Contract Guard Utilization

         According to USMS directives, district offices may procure contract
   guards to perform certain activities, including securing and processing
   federal prisoners in the cellblock, courtroom, and during transportation;
   securing and transporting federal prisoners to and from medical
   appointments or hospitalization; and securing federally seized or forfeited
   property. However, these directives also state that contract guards are
   prohibited from conducting certain activities such as any type of
   investigation or personal security detail. 55

        As shown in the following exhibit, we determined that some contract
   guards had recorded time on activities that they were prohibited from


          55
             Contract guards involved with the Justice Prisoner and Alien Transportation Service
   (JPATS) may be an exception during prisoner movements involving international extraditions
   or witness security details. The JPATS, which is managed by the USMS, transports prisoners
   and aliens in federal custody within the United States and overseas using primarily air
   transportation. The JPATS serves not only the USMS, but also the Federal Bureau of Prisons
   (BOP) and the Immigration and Customs Enforcement (ICE) agency of the Department of
   Homeland Security (DHS).

                                       - 37 -
                            REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


performing. 56 For example, the USM-7 data file indicated that contract
guards worked on federal felony and non-felony warrants, 15 most wanted
and major cases, terrorist investigations, and protective investigations.
Similarly, we identified several instances in which contract guards had
recorded time to protective details of, among others, three district court
judges, Supreme Court Justices, and the Deputy Attorney General, as well
as for judicial conferences and U.S. Attorneys’ conferences. In total, we
computed that during our review period the USMS’s potential use of contract
guards for restricted duties ranged from 22 to 43 FTEs. 57

                                   EXHIBIT 3-9
          USMS CONTRACT GUARD FTEs POTENTIALLY NOT UTILIZED
                   IN ACCORDANCE WITH USMS DIRECTIVES
                       FISCAL YEARS 2000 THROUGH 2005
                                     FY     FY FY     FY FY                          FY
Decision Unit
                                    2000 2001 2002 2003 2004                        2005
Judicial & Courthouse Security       14     14  18    24 21                          24
Fugitive Apprehension                 6      3  5      3 17                           7
Prisoner Security & Transportation    0      0  0      0  0                           0
Protection of Witnesses               1      1  1      2  4                           1
Operations Support                    0      0  1      0  0                           4
Other                                12      4  4      2  1                           2
Total                                33     22 29     31 43                          38
Source: OIG analysis of USM-7 data


       We discussed this issue with each of the headquarters unit Assistant
Directors. These USMS officials did not know if contractors had performed
restricted duties or had simply recorded their time to project codes
associated with prohibited activities. Most expressed surprise and stated
that contract guards should not be used on these types of activities and
none had ever received a request from a district to use these resources in
this manner. However, they offered possible explanations as to why this
might have occurred. For instance, the Assistant Directors suggested that a
district may have used contract guards as drivers during protective details
since these individuals, who are often off-duty police officers, are most
familiar with the local area.

       56
            As noted in Chapter 2, guards hired as independent contractors are the only
contract personnel who record their time in the USM-7. Therefore, we could not review the
activities of those guards procured through national vendor contracts.
       57
          We used a conservative approach for determining the number of contract guard
FTEs that were not potentially used in accordance with USMS policy. The specific meaning
of some project codes was not evident, and an accurate determination could not be made if
they should be considered allowable or restricted duties. In these instances, we treated
these project codes as being permissible.

                                    - 38 -
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE



      Another common explanation provided by USMS officials for the time
reporting of contract guards related to a USMS effort to track costs incurred
on special assignments. They explained that contract guards are often hired
in the districts to backfill positions left vacant when an operational employee
is temporarily assigned to special tasks. The contractor records his work
hours to the project code linked with the funding provided to the district for
the special task, and because the financial and timekeeping systems are
related, the result is that the contractor’s time is associated with the work
performed by the individual whose position has been backfilled.

      Despite these possibilities, the USMS could not verify that these
contract guards were being used in accordance with USMS directives.
Moreover, the Assistant Directors remarked that a U.S. Marshal may have
granted approval, unbeknownst to headquarters, to allow contract guards to
address these activities.

      When recording time, personnel should use the project code
associated with the task being performed by them, not someone else. This
would help the USMS to accurately determine its resource utilization. A
USMS official explained that the USMS plans to expand the use of another
data field in its timekeeping system to identify the actual activity personnel
are performing. We believe that USMS management should regularly review
the utilization of contract guards in order to ensure that they are performing
in accordance with USMS policy.

Familiarity with USMS Data Systems

       During our fieldwork, we found that the manipulation and
interpretation of information in the USMS’s automated data systems is
limited to a very small number of staff at USMS headquarters. As a result,
only one or two individuals from each program area were intimately familiar
with the workload-related operational data systems, as well as how the
districts utilized them. For example, the USMS has one headquarters-based
individual who serves as the liaison with the district offices regarding
the PTS. However, this individual was detailed on a temporary duty
assignment for approximately 1 month during our review, and no one else
was capable of fully answering our questions regarding the content and
usage of the data system.

       Further, we attempted to verify results of our data analyses with
program officials. The program officials directed us to a single individual
within the Management and Budget Division where, we were told, this
individual is responsible for extracting, manipulating, and reporting all

                               - 39 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


workload-related data that is reflected in the USMS budgets. However,
despite preparing the performance and workload-related reports, this official
was unable to provide explanations about changes in USMS resource
utilization and workload and referred us back to the program officials. We
believe that the USMS should have an adequate number of staff familiar with
the data systems, both to ensure continuity in the assessment of the USMS
workload, as well as a contingency in the event the person who knows the
system is not able to perform his or her duties.

Chapter Summary

       We found that although the USMS uses several information technology
systems to track resource utilization and activities by specific workload
areas, it does not allocate resources to district offices in this manner.
Further, USMS officials do not routinely review overall resource utilization
reports related to the activities and personnel for which they are responsible.
As a result, the USMS cannot definitively determine if its resources are being
appropriately used in line with its varying priorities and responsibilities, nor
can it ascertain how efficiently it is achieving its organizational objectives.

       We believe that the USMS should frequently review resource utilization
data to identify, and thereby address, any inconsistencies. For example,
although the USMS stated that investigating judicial threats is a high priority
and indicated the workload was rising and significant resources were being
expended, USMS data indicates that only 24 operational FTEs were utilized
in this area in FY 2005. By contrast, 981 operational FTEs were used on
fugitive apprehension. Routine monitoring and evaluation of its workforce
would also help ensure that personnel are being appropriately assigned to
handle the priority areas of the agency. Moreover, these reviews, when
examined in conjunction with workload statistics, can assist management in
identifying any best practices or potential areas of improvement in the
efficiency of the USMS.

Recommendations

We recommend that the USMS:

      7.    Require that resource utilization reports be generated and
            reviewed regularly by USMS management to ensure USMS
            resources are being utilized as intended. Particular attention
            should be paid to the area of protective investigations.

      8.    Ensure that there is an adequate number of staff familiar with
            the data systems to allow for continuity in the assessment of the
            USMS workload.
                                - 40 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       CHAPTER 4: PAY COMPENSATION AND CAREER
                    PROGRESSION

       The USMS uses several different types of operational employees to
accomplish the various functions assigned to the agency. During our
discussions with USMS operational personnel throughout FY 2006, many
individuals noted their dissatisfaction with their career progression
opportunities and pay compensation. In September 2006, the USMS made
revisions to the career progression system for its operational workforce. We
believe the USMS should closely monitor the implementation of this new
system to ensure it is put into action as designed and serves the needs of
the USMS and its workforce.

Three-Tiered Workforce

       In FY 2000, the USMS established a three-tiered workforce model for
its operational employees. According to a USMS headquarters official, the
USMS took this action to more appropriately match employee skill and pay
levels with job tasks after officials recognized that the USMS frequently
utilized highly trained deputies to perform less complex court-related duties,
including prisoner detention and transportation. This three-tiered workforce
consists of Detention Enforcement Officers (DEO), Deputy U.S. Marshals
(DUSM), and Criminal Investigator Deputy U.S. Marshals (CIDUSM), with
each position having a tailored scope of duties.

       As shown in Exhibit 4-1, the duties of these positions become
successively broader and more complex. For example, Detention
Enforcement Officer responsibilities consist primarily of processing and
transporting prisoners. However, Deputy U.S. Marshals supervise prisoners
during court proceedings and assist Criminal Investigator Deputy U.S.
Marshals with more complex investigative duties. Further, CIDUSMs focus
their efforts on investigative duties, including surveillance, protective
assignments, threats endangering the judicial process, and protection of
witnesses. Finally, each position may perform the duties of the lower tier.
For example, Deputy U.S. Marshals may perform Detention Enforcement
Officer duties and Criminal Investigator Deputy U.S. Marshals may perform
Deputy U.S. Marshal and Detention Enforcement Officer assignments.




                               - 41 -
                    REDACTED FOR PUBLIC RELEASE
             REDACTED FOR PUBLIC RELEASE


                  EXHIBIT 4-1
      PRIMARY USMS OPERATIONAL POSITIONS




 Criminal Investigator (CIDUSM) - GS-1811-5/12
 Primary responsibilities:
    planning and conducting investigations
    obtaining and executing search warrants
    planning and maintaining surveillance
    developing and utilizing informants
    preparing investigative reports
    planning and performing protective assignments




 Deputy U.S. Marshal (DUSM) GS-082-5/11
 Primary responsibilities:
    producing prisoners in court
    maintaining custody of the prisoners throughout court proceedings
    planning and providing security for trials, judges, and arraignments
    gathering intelligence and developing security plans to ensure courtroom
    security
    planning and executing court orders for seizures
    executing civil process

 Under the supervision of a criminal investigator, DUSMs may:
   assist in planning and making arrests
   assist in conducting protective detail assignments




 Detention Enforcement Officer (DEO) - GS-1802-5/7
 Primary responsibilities:
    processing and transporting prisoners
    conducting prisoner searches
    controlling access to and maintaining order within the detention areas
    obtaining prisoners' personal history
    preparing transportation documentation




Source: USMS



                        - 42 -
             REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


Career Progression

       According to a senior USMS headquarters official, since 2003, most of
the USMS’s new CIDUSMs came from the DUSM ranks. 58 Since the inception
of the three-tiered workforce model through September 2006, in order for
DUSMs to become CIDUSMs, they had to compete for available CIDUSM
positions through a formal application process. To be eligible for a CIDUSM
position, applicants were required to have at least 1 year of experience as a
DUSM and have a performance rating of “acceptable.” Additionally, in
applying for a CIDUSM position, DUSM applicants had to submit a written
description of their experience performing or assisting with various USMS
activities, including prisoner transportation, court security, fugitive
investigations, and protective details.

      During our audit, several district representatives, including
U.S. Marshals, expressed concern with the three-tiered structure as it
existed from FYs 2000 through 2006. Many district representatives
described to us two common issues regarding compensation and career
advancement that they believed created tension among operational
personnel and contributed to low morale among DUSMs. Both concerns
were voiced repeatedly throughout our audit, indicating the need for these
areas to be reviewed for possible improvement.

       The first common concern was the disparity in pay between the DUSM
and CIDUSM positions. 59 The predominant criticism expressed was that the
actual duties performed by DUSMs and CIDUSMs did not differ significantly
enough to require a distinction between the two positions. DUSMs stated
that, as a result, they often performed the same duties as CIDUSMs, albeit
for less pay.

       The other concern commonly expressed was that DUSMs often were
unable to gain the experience necessary to be eligible for a CIDUSM position.
Due to the high demands of the courts in several of the districts that we
visited, DUSMs in these districts were spending most of their time handling
prisoner transportation and court security. As a result, these DUSMs often

       58
           According to USMS headquarters officials, DEOs have the opportunity to apply for
available DUSM positions. However, most DUSM positions were not filled from the DEO
ranks, but rather from outside the USMS. DEOs are hired at the district level, while DUSMs
are hired through a centralized process.
       59
           CIDUSMs receive law enforcement availability pay, which is a type of premium
pay that is paid to federal law enforcement officers who are criminal investigators. Due to
the nature of their work, criminal investigators are required to work, or be available to
work, substantial amounts of "unscheduled duty," which is compensated by the premium
pay rate.

                                   - 43 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


did not perform work in other mission areas, including fugitive investigations
and protective details.

       In September 2006, in an effort to create a highly flexible workforce
capable of responding to the full range of mission requirements, the USMS
implemented a new directive permitting each DUSM that meets certain
requirements to non-competitively convert to a CIDUSM position. According
to the USMS, this directive is also designed to: (1) ensure that successful
participants have the requisite knowledge, skill, and ability to carry out
CIDUSM duties; and (2) support the USMS’s efforts to attract and retain a
workforce capable of meeting the demands presented by the USMS’s varying
mission activities.

       In our opinion, this recently adopted conversion program can help
alleviate the problems expressed by many of the district representatives we
interviewed. However, this program was only recently implemented, and we
believe that the USMS must closely monitor its implementation to ensure it
meets the needs of the USMS and its workforce.

Compensation

      During our fieldwork, several USMS operational personnel expressed
dissatisfaction with the GS-12 journeyman level of CIDUSMs. According to
these individuals, criminal investigators at other DOJ components, namely
the FBI and DEA, attain journeyman status at the GS-13 level. The
CIDUSMs believed that their duties were comparable to those performed by
criminal investigators at these other agencies and thus should be afforded
equivalent journeyman level status.

       The Office of Personnel Management (OPM) formally issues all position
classification standards that provide grading criteria for positions classified
under the General Schedule Classification System. Although OPM provides a
framework, it is ultimately the responsibility of each agency to properly
classify its positions. We were informed by a USMS official within the Human
Resources Division that the USMS has reviewed the journeyman level status
of its criminal investigators and determined that these positions were
appropriately graded at the GS-12 level. However, the USMS Director
informed us that he intends to reassess the classification of the USMS’s
criminal investigators.

Chapter Summary

     The USMS established a three-tiered workforce model for its primary
operational employees in FY 2000. However, during our audit several


                               - 44 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


district representatives expressed concern with this structure as it existed
from FYs 2000 through 2006.

       At the end of FY 2006, the USMS implemented a new policy that
changed the process for converting from a DUSM to a CIDUSM. According to
the USMS, this new guideline was designed to create a more highly qualified
workforce capable of responding to all mission activities. In our opinion, this
new policy can help to alleviate some of the concerns of USMS district
personnel regarding the career progression of the agency’s operational
workforce. However, because establishment of this new career path is a
relatively recent occurrence, the USMS should ensure that it maintains
proper oversight of the implementation of this policy to ensure that it
accomplishes the purposes for which it was designed.




                               - 45 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                       CHAPTER 5: USMS TRAINING

       We reviewed the steps that the USMS has taken to ensure its
operational employees are provided sufficient training to accomplish the
organization’s mission. We concluded that the USMS generally provides
adequate training to its operational employees during their initial basic
training. However, a backlog exists for the initial training of DEOs. 60 In
addition, although a training framework and curriculum are in place for
continued employee development, we determined that training for USMS
operational employees after the initial training was sporadic and inadequate.
Many USMS officials remarked that the inadequate amount of training was
primarily caused by budget shortages. However, we believe that the USMS
can more effectively manage its training budget for continued employee
development.

Planning and Implementation of Training Programs

       The USMS has developed a framework for its employees’ basic and
continuing educational needs. U.S. Marshals, Assistant Directors, and
Training Academy officials share responsibility for the implementation of
various USMS training programs. According to USMS directives regarding in-
district training and annual retraining, office management is responsible for
assessing employee training needs, identifying appropriate training
opportunities and providers of training, and ensuring that all employees
comply with annual training requirements. The USMS Training Academy,
located at the Federal Law Enforcement Training Center (FLETC) in Glynco,
Georgia, is responsible for all aspects of training conducted at the Academy,
including the development of course content, scheduling class sessions, and
administering courses. 61

       The amount of funds budgeted for training matters has fluctuated
since FY 2003, as illustrated in Exhibit 5-1. A senior official from the USMS
Training Academy noted that FY 2003 was a “banner” year in which a
sizeable amount of funds were allocated for training to accommodate a
hiring push of DUSMs. This official stated that he would prefer more stable
funding amounts so the Training Academy could more effectively plan for its
activities.


       60
          A USMS official explained that the backlog for DEO initial training would be
eliminated upon completion of the USMS’s upcoming DEO Basic Training Course, which the
USMS plans to conduct in the fourth quarter of FY 2007.
       61
          FLETC serves as an interagency law enforcement training facility for over
80 federal agencies, including the USMS.

                                   - 46 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


                          EXHIBIT 5-1
                 USMS ALLOCATED TRAINING FUNDS
                       FISCAL YEARS 2003 THROUGH 2006


                  $7.5
                 Million




                                                         $5.4
                                $5.1                    Million
                               Million




                                              $3.1
                                             Million




                 FY 2003       FY 2004       FY 2005    FY 2006

             Source: USMS Training Academy

       Since FY 2003, the USMS Training Academy has managed the USMS’s
training budget. Using these funds, the USMS provides basic and continued
development courses at the USMS Training Academy. Additionally, these
funds can be used to obtain training from external sources.

Basic Academy Training

       To assess the adequacy of the initial basic training provided to
operational employees, we interviewed Academy officials, trainees, and
district representatives. Additionally, we reviewed course evaluations
prepared by students attending the basic programs conducted during
FYs 2004 and 2005, as well as examined the courses and schedules for each
of the basic training programs. Based upon our review, we believe that the
USMS has generally provided adequate basic training to its operational
employees. However, we identified some concerns with the DEO Basic
Training Program and the CIDUSM basic training program as it existed until
September 2006.




                               - 47 -
                    REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


Detention Enforcement Officers

       According to the USMS Training Manual, all DEOs must successfully
complete the DEO Basic Training Program. 62 The course is a 4-week
program at the Academy that involves classroom presentations, practical
exercises, and firearms training. The course is also intended to provide an
orientation to USMS policies and procedures and a comprehensive
curriculum in the administrative and operational areas of prisoner handling
and prisoner movement. According to one USMS Training Academy official,
the USMS routinely plans for one 24-person DEO Basic Training Program per
fiscal year. 63

      As part of our review, we analyzed course evaluations prepared by
2004 and 2005 attendees of the 4-week DEO Basic Training Program.
Although the attendees offered many suggestions for improvement,
generally their evaluations were positive and suggested that the program
had adequately prepared them for their duties as DEOs.

        However, during the course of our audit, we were informed by a senior
USMS Training Academy official that newly hired DEOs can experience
significant delays before attending the DEO basic training course.
Specifically, this official stated that delays may be encountered due to the
scheduling of the basic training program, which is typically conducted once
each fiscal year in the fourth quarter. As a result, a DEO hired at the end of
a fiscal year may be required to attend the course at the end of the following
fiscal year. In addition, if a class is full or cancelled, a DEO may be delayed
from attending this training for up to 2 years, depending on the date of
hire. 64

       To mitigate delays in basic training for DEOs, in October 2004 the
USMS developed an in-district training module to ensure that new DEOs are
oriented to the essential functions of the DEO position after they are hired.
Although the in-district training module provides some training to the DEOs,
it is not designed to replace the DEO Basic Training Program, which all DEOs
are required to attend before they can work independently.


        62
          An exception to this rule may be granted if a current DEO from another agency is
offered a DEO position with the USMS and a waiver is granted by the Chief of the Training
Academy.
        63
             Between FYs 2000 and 2005, the USMS on average hired fewer than 40 DEOs per
year.
        64
          According to the USMS, the minimum class size is 18 students and the maximum
is 24 students.

                                     - 48 -
                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


       During our fieldwork, we were not able to determine the overall
backlog of DEOs in need of the 4-week DEO Basic Training Program because
the USMS did not maintain centralized records that adequately supported
training activities. 65 However, at the conclusion of our audit, the USMS
provided us with a listing of DEOs who had not yet attended the DEO Basic
Training Program. Regardless, we believe that the USMS should regularly
monitor any existing backlog and explore additional methods for providing
basic DEO training to appropriate individuals.

Deputy U.S. Marshals

       Prior to FY 2007, all DUSM candidates were required to complete a
two-phase basic training curriculum before taking on the duties of the
position and being assigned to a district office. A DUSM candidate was first
required to successfully complete the U.S. Marshals Service Integrated
(USMSI) Training Program, which was instructed jointly by the USMS and
FLETC. According to the USMS, the USMSI Training Program (Phase I) was
an 8-week program intended to be an in-depth study of the law enforcement
and administrative concepts that DUSMs must possess, including court
security, the handling of prisoners, and personal protection.

       Upon successful completion of Phase I, DUSM candidates were
required to complete the DUSM Agency-Specific Follow-On Training Program
(Phase II). Phase II was a 3-week training program that was intended to
serve as an enhancement to the broad topics initiated in the USMSI. The
objective of the training program was to provide instruction on matters
directly related to the USMS’s core mission of judicial security. According to
the USMS, the program was also designed to emphasize hands-on training
and provide new deputies with the knowledge and skills necessary to equip
them for high-threat trials and prisoner handling.

       Most USMS district personnel and trainees with whom we spoke stated
that basic DUSM instruction was high-quality training. Specifically, several
district supervisory personnel believed that the DUSMs were well-prepared
to assume their duties upon exiting the Academy. This positive feedback
mirrored the information provided by the trainees in the written post-
training evaluations that we reviewed, which suggested that basic DUSM
instruction left them feeling well-prepared and confident.

Criminal Investigator Deputy U.S. Marshals

      Prior to FY 2007, all DUSMs selected for CIDUSM positions were
required to successfully complete a three-part CIDUSM training program

      65
           The USMS’s inadequate training records are further discussed on page 54.

                                   - 49 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


before assuming the duties of the position. The first training phase was a
1-day Abbreviated Pre-Basic Training Program consisting of physical fitness
testing and various law enforcement and administrative matters. Upon
completion of the 1-day orientation, candidates attended FLETC’s 11-week
Criminal Investigator Training Program (CITP). This course covered subjects
such as interviewing techniques, undercover operations, warrant execution,
tactical training, firearms precision shooting, and emergency response
driving. Upon the successful completion of the CITP, candidates moved on
to the final 5-day phase, the Abbreviated Basic Deputy U.S. Marshal Criminal
Investigator Training Program. The program focused on fugitive,
background, and protective investigation techniques, as well as numerous
practical exercises involving warrant investigations.

       We observed a CIDUSM course in session and spoke with
approximately 40 trainees regarding the quality of the training. Most of
these trainees noted that much of the CIDUSM basic training was already
covered in the DUSM basic training program, which they attended earlier in
their careers. These individuals generally found this repetition to be
inefficient and a waste of resources. In addition to the trainees, Training
Academy officials recognized that much of the criminal investigator basic
training program was repetitive.

      In September 2006, the USMS revised its basic training programs for
DUSMs and CIDUSMs, which addressed the repetitive training issue. As a
result, DUSMs hired after this date are no longer required to return to the
Academy for the criminal investigator training before converting to the
CIDUSM level. Instead, this training is now integrated into the basic training
program for newly hired DUSMs. This step should eliminate for newly hired
DUSMs the apparent inefficient use of resources that resulted from the
repetitive training.

Continuing Employee Training

       Unlike their satisfaction with basic training, a large number of USMS
district employees we interviewed during our audit, including managers and
supervisors, expressed dissatisfaction or concern with the employee training
opportunities that occur after completing required basic training. The
following sections articulate the issues we identified in distinct employee
development areas.

Three-year Development Program

      Prior to September 2006, USMS directives required all new CIDUSMs
to complete a 3-year developmental program, which was designed to ensure
that these employees were exposed to a wide range of operational duties

                               - 50 -
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


and developmental assignments, including fugitive investigations, prisoner
handling, and protective details. During this period, a Field Training Officer
(FTO), assigned by district management, was to supervise and evaluate the
newly appointed CIDUSM. Additionally, each new CIDUSM was required to
fulfill minimum time requirements in each operational program area.

       While USMS directives stipulated a developmental program for new
CIDUSMs, there was no equivalent program in place for new DUSMs to
complete in their first, post-basic training assignments. Additionally,
although the USMS had basic guidelines for the FTO program that required
district officials to ensure that FTOs receive training to introduce them to the
program, the USMS did not have a formal training program to ensure that
USMS personnel selected to serve as FTOs were trained to be effective
instructors or leaders.

       The USMS’s September 2006 revision of its training program also
affected the USMS’s 3-year developmental program. The program, which
must now be completed by all newly hired DUSMs after they complete basic
training, is also now a pre-requisite for advancement to a CIDUSM position.
We believe this change will result in a more highly trained DUSM workforce
because it will be provided with the opportunity to obtain experience in each
of the USMS’s mission areas. However, we believe that the USMS should
consider developing a formal training program for FTOs to ensure that
appropriate training is provided in a consistent fashion by qualified USMS
personnel.

Advanced Training

      In 1993, the USMS implemented a follow-up training course for its
CIDUSM workforce referred to as Advanced Deputy Refresher Training,
which was designed to reinforce the skills and broaden the knowledge of
journeyman CIDUSMs. Although this training is to be completed by
CIDUSMs after 5 years in this position and then every 3 years thereafter, the
USMS conducted no advanced deputy training sessions during FYs 2003 and
2004, and only two sessions in FY 2005. Additionally, we were informed by
many CIDUSMs that this training requirement was often not being met
within the specified timeframes. For example, some CIDUSMs remarked
that they had only attended one course during their tenure as a CIDUSM,
which in some cases had been at least 9 to 10 years. 66


      66
          We attempted to analyze empirical data to determine if USMS personnel attended
advanced deputy refresher training in a timely manner. We were unable to conduct such an
analysis because the USMS did not maintain adequate documentation of the training
provided or received. This is further discussed on page 54.

                                  - 51 -
                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


       In general, the operational employees with whom we spoke were
concerned about their lack of on-going training opportunities. Several
operational personnel in the district offices we visited voiced specific concern
about the lack of advanced firearms training, which is a component of the
advanced deputy training. According to the advanced training curriculum,
several sessions involve real-world shooting situations, such as advanced
weapons proficiency, tactical shooting, reduced light firing, defensive drills
with handguns, handling of weapons during building entries and room-to-
room searches, and proper use of cover while firing weapons. This lack of
training is detrimental to the professional development and safety of
CIDUSMs, and we believe that CIDUSMs should periodically receive updates
to their basic training.

      In addition to the concerns about delayed Advanced Deputy Refresher
Training, many district personnel commented about the lack of training
opportunities from other sources. These employees stated that in order to
receive any on-going training to further their development, they had to seek
out hard-to-find free training or sometimes pay for the training themselves
and take leave to attend.

Supervisory and Management Development

       The USMS has developed formal training for its supervisory employees
and senior managers. According to the USMS Training Manual, the
Introduction to Management and Leadership (IML) course for new
supervisors is intended to provide them the necessary information and tools
to be effective in their new positions. For senior managers, the USMS offers
a two-part training program, which focuses on ethical decision-making,
conflict resolution, and leadership.

       Very few of the supervisors that we interviewed had attended the IML
course. We interviewed several supervisors who had been in their positions
for 2 to 3 years without the benefit of the IML or any other supervisory or
managerial training.

Detention Enforcement Officer Development

       Although the USMS currently has a formal on-going training program
for its DUSM and CIDUSM workforce, no such opportunities exist for the DEO
workforce. In our opinion, the USMS should develop a formal, post-basic
training plan for DEOs in order to ensure that its DEO workforce is
adequately trained and kept abreast of new developments in law
enforcement.



                                - 52 -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


  Management of Training Funds

         As shown in Exhibit 5-2, the USMS’s training budget has fluctuated
  since FY 2003. In addition, we found that over this same time period the
  USMS had training funds that were not expended prior to making end-of-
  year purchases for items, such as ammunition and vehicles. 67 After
  accounting for these purchases, the USMS continued to record a surplus in
  training funds, which was returned to the USMS general fund in each of
  these fiscal years.

                                   EXHIBIT 5-2
                         USMS TRAINING BUDGET RECAP
                            FYs 2003 THROUGH 2006
                                                   End-of-Year                    Overall
                                       68
 FY       Allocation      Expenditures    Balance   Purchases                    Surplus
2003      $7,515,631        $6,667,491    $848,140   $623,640                    $224,500
2004      $5,058,087        $4,705,965    $352,122   $168,302                    $183,820
2005      $3,075,550        $2,964,073    $111,477    $85,852                     $25,625
2006      $5,432,467        $5,078,636    $353,831   $312,524                     $41,307
Source: OIG analysis of USMS Training Academy data


         Many of the employees who mentioned a lack of training opportunities
  attributed this condition to a lack of training funds. For example, both
  headquarters and district office personnel stated that the Advanced Deputy
  Training course was frequently canceled due to lack of funding. Exhibit 5-3
  details the number of Advanced Deputy Training courses scheduled and
  conducted from FYs 2000 through 2005, as well as the average number of
  participants per class during each fiscal year.




        67
             According to a USMS Training Academy official, these end-of-year purchases may
  include items purchased to support the Training Academy’s response support mission.
  According to this official, Training Academy personnel and trainees are deployed during
  national emergencies, such as the September 11, 2001, terrorist attacks, and Hurricane
  Katrina. This requires that the Academy maintain supplies on-hand that it may need to
  provide an immediate response to future emergencies. The USMS official further stated that
  end-of-year purchases may include costs related to the Academy’s administration of the
  USMS’s firearms, less-than-lethal, and body armor programs.
        68
           This column includes those costs incurred by the USMS for Academy class
  expenditures, operating expenses, FLETC charges, and external training courses.


                                    - 53 -
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                       EXHIBIT 5-3
    OVERVIEW OF USMS ADVANCED DEPUTY TRAINING COURSES
Fiscal   Number of Courses       Number of Courses        Average Number of
Year        Scheduled               Conducted            Participants per Class
2000            7                       7                          41
2001            7                       5                          45
2002            7                       5                          43
2003            8                       7                          35
2004            7                       3                          31
2005            6                       1                          40
 Source: USMS Training Academy

       Although we recognize that it may be impossible for the USMS to use
its entire training budget in each fiscal year, these significant end-of-year
purchases and surpluses suggest that the training funds could be managed
more effectively. Considering the numerous statements made to us by
USMS employees indicating a need for continued training, the USMS should
ensure that allocated training funds are being utilized to their greatest
extent.

       A USMS headquarters official spoke to this issue at the conclusion of
our audit and commented that when budgeting for classes, the Academy
projects for a worst-case scenario. Therefore, if the cost for classes is lower
than projected, the Academy will have additional funds remaining at the end
of a fiscal year. Further, this official noted that it generally is not until near
the end of the fiscal year that the Academy is able to adequately determine
the amount of remaining funds. While we understand that the Training
Academy cannot predict the amount of surplus training funds in any given
fiscal year, we believe that the USMS could improve its planning so that
these training funds are used to provide additional training, either external
or internal, for its operational personnel.

Inadequate Training Records

       During our review of the USMS’s training efforts, we noted that the
USMS lacked a comprehensive automated system for recording and tracking
its employees’ training. To comply with our request for accurate information
related to the advanced deputy course completion, USMS Training Academy
officials manually reviewed hard-copy documents such as course rosters. In
gathering the data, USMS officials identified significant amounts of missing,
erroneous, and inconsistent information. Ultimately, we could not use the
data provided because it was not reliable.




                                - 54 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


      The lack of an automated system has reduced the USMS’s ability to
assess its training needs. We discussed this issue with USMS headquarters
and Training Academy officials, who agreed that the agency needs a training
management system and stated that they have included provisions for an
automated training system in their recent budget submissions. However,
funding for this item was not approved by DOJ officials. According to the
USMS officials, DOJ is exploring the procurement of a single training data
information system for use by all DOJ components. However, in the interim
we believe that there are low-cost methods of maintaining this information,
such as a spreadsheet or database, in a centralized manner in the absence
of a DOJ-wide system.

Chapter Summary

       We found that the USMS generally provided adequate instruction to its
operational workforce during its basic training classes. In contrast, we
determined that the continued employee development of its operational
workforce was sporadic and inadequate. For example, the Advanced Deputy
Refresher Training was to be completed by CIDUSMs after 5 years in this
position and then every 3 years thereafter. However, the USMS conducted
very few sessions during FYs 2004 and 2005. Moreover, many CIDUSMs
who we interviewed stated that this training was not being provided within
the specified timeframes. Additionally, the USMS established formalized
training for its supervisory positions, but we interviewed several USMS
personnel who had been supervisors for 2 to 3 years but had not received
any such training.

       The majority of the employees who cited a lack of training
opportunities attributed this condition to a lack of training funds. We noted
that the amount of funds budgeted for training between FY 2003 and
FY 2006 has fluctuated greatly. However, we also found that for FY 2003
through FY 2006, the USMS Training Academy was left with a surplus in
training funds at the end of the fiscal year that was returned to the USMS
general fund.

Recommendations

We recommend that the USMS:

      9.    Develop a formalized training program for USMS operational
            personnel selected to be Field Training Officers to ensure that
            they have adequate knowledge, skills, and abilities to instruct
            new staff.



                               - 55 -
                    REDACTED FOR PUBLIC RELEASE
              REDACTED FOR PUBLIC RELEASE


10.   Ensure that CIDUSMs attend the Advanced Deputy Training
      course within the timeframes prescribed by the USMS.

11.   Ensure that newly appointed USMS supervisors attend USMS
      supervisory training within a reasonable period of time following
      their promotion.

12.   Establish a procedure to periodically review the training of DEOs
      to identify and rectify any backlog of untrained DEOs exists.

13.   Establish a continuing education program for DEOs.

14.   Ensure that training funds are effectively managed and that
      significant surpluses are avoided.

15.   Follow up with DOJ on its plans for establishing a department-
      wide system to record employee training. At the same time,
      consider developing an interim centralized system to track the
      training for each USMS employee.




                         - 56 -
              REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX I


  APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

      Our audit objectives include determining whether the USMS:
(1) adequately designed, tested, and implemented a workforce management
plan that sufficiently assesses its human resources and capacity requirements
based on current and expected work loads by function; (2) evaluates,
monitors, and corrects, if necessary, its personnel utilization to ensure it
directs appropriate resources to its highest priorities and achieves its
organizational objectives; (3) has sufficiently addressed pay compensation,
including job-grade and career progression; and (4) has provided adequate
and appropriate training to its operational employees.

Scope and Methodology

      We performed our audit in accordance with the Government Auditing
Standards and included such tests of the records and procedures that we
considered necessary to accomplish the audit objectives. We performed
testing of the USMS’s compliance with certain internal controls in the
accomplishment of our audit objectives and include discussion on such in
Chapters 2 through 5 of our report. The objectives of our audit did not
require that we perform testing of the USMS’s compliance with laws and
regulations.

     To accomplish our objectives, we interviewed officials at USMS
headquarters and district offices, and reviewed empirical resource utilization
and workload data.

Interviews

       Much of our work centered on interviews with USMS officials at various
levels within the organization, which were conducted at the headquarters and
district office levels. Additionally, we interviewed DOJ Justice Management
Division (JMD) officials involved with budget and human resource matters.
These interviews, as well as documentation obtained during the interviews,
provided perspective on the resource-related issues covered by our audit
objectives. In total, we interviewed 186 USMS and DOJ officials.

     Of these interviews, 50 were conducted with USMS personnel at its
headquarters in Arlington, Virginia, and the Federal Law Enforcement Training
Center in Glynco, Georgia. Specifically, we spoke with the USMS Director and
Deputy Director, USMS Training Academy officials, as well as Assistant

                                - 57 -
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX I
Directors and other staff in several headquarters divisions, including the
Investigative Services Division, Judicial Security Division, and Witness
Security and Prisoner Operations Division. We also met with the Acting
Assistant Attorney General for Administration, as well as JMD budget and
human resources representatives.

      Further, we conducted fieldwork at seven USMS district offices to obtain
the district-level perspective on various issues pertaining to USMS human
resources. During fieldwork, we interviewed 119 district representatives,
including U.S. Marshals, Chief Deputy U.S. Marshals, deputies, and
administrative staff. Following is a list of the USMS district offices visited:

   •   Central District of California
   •   Western District of Texas
   •   Northern District of Illinois
   •   District of Rhode Island
   •   Southern District of New York
   •   D.C. Superior Court
   •   Southern District of Florida

      During our fieldwork at the seven district offices, we met with 13 USMS
representatives on the Regional Fugitive Task Forces, which were located in
the same jurisdictional area. Specifically, we interviewed USMS officials from
the Capital Area Regional Fugitive Task Force, Great Lakes Regional Fugitive
Task Force, New York / New Jersey Regional Fugitive Task Force, and Pacific
Southwest Regional Fugitive Task Force.

Utilization and Workload Data

       To assist in accomplishing the audit’s objectives, we analyzed data
provided by the USMS. Specifically, we conducted analyses of USMS data on
its resource allocation, resource utilization, and casework. We requested
data from the Administrative Office of the U.S. Courts (AOUSC) to provide
more insight on the USMS’s court-related workload. However, the AOUSC
was unwilling to provide us with this information.

      To examine the USMS’s human resource utilization, we examined data
from the USMS’s USM-7 system – a module of its payroll system – for the
period October 1, 1999, through September 30, 2005. The USM-7 contains
work-hour data for all USMS employees, as well as for personal services
contract guards. To examine the types and quantity of work addressed by
the USMS during this same time period, we analyzed data from the USMS’s
Warrant Information Network (WIN) and Prisoner Tracking System (PTS).


                                 - 58 -
                      REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX I
Data Analysis

       We performed analyses of USMS resource allocation, resource
utilization, and casework data to identify trends and note significant changes
in the USMS’s operations from FY 2000 to FY 2005. In total, this data
amounted to 12,884,978 records. As noted in the body of the report, we
identified several concerns with the accuracy and reliability of the data
contained within the USMS’s automated systems. While we believe that
these issues affect the analyses we performed, we believe that the overall
results presented have utility for looking at the USMS as a whole to get a
basic understanding of the agency’s resource utilization and workload. We
did not perform an independent, overall assessment of the reliability of the
data in the USMS’s automated systems.

USMS Human Resources

      We conducted analyses of USMS positions (authorized or allocated
levels) and full-time equivalent (resource utilization) data.

      Allocated Resource Levels

       We used the USMS’s position data established by the Management and
Budget Division to analyze the allocation of USMS resources. We obtained
operational and administrative allocations for each fiscal year, for both USMS
district offices and headquarters divisions for FYs 2000 through 2005. The
USMS does not allocate district resources to specific mission activities, such
as fugitive apprehension or judicial security. We reviewed these resource
allocation levels, focusing on changes occurring between FYs 2000 and 2005.
The total position data amounted to 2,034 records.

      Resource Utilization Levels

       USMS employees and personal services contract guards (also known as
District Security Officers) record their time on the USM-7 every 2 weeks.
When completing the USM-7, USMS personnel record the number of hours
worked (tracked to 0.25 hours) to project codes that are attributed to the
type of function or duty being performed. For example, for any 8-hour day, a
Deputy might record that he worked 4 hours apprehending fugitives, 2 hours
producing prisoners for court, and 2 hours in annual leave status. The USM-7
data is only as valid as the information reported by USMS personnel.
However, the USMS considers the USM-7 system’s data to be the best way to
assess the actual amount worked by USMS employees and independent
contractors in specific mission areas.


                                - 59 -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                          APPENDIX I
      The USM-7 data run was provided in a text file, which we imported into
a database file. The data run contained 7,981,715 records, each containing
information within 19 different fields. Following is a listing of the fields used
as part of our analyses:

Field   Name              Field Description
   •    SSN_Name          Name of Employee/Contractor
   •    Pay_period        Two-digit designation of pay period
   •    FY                Identifier of fiscal year to which record applies
   •    Fund              Fund code identifying the appropriation to which a record is
                          associated
   •    Organization      Alphanumeric designation for district office or headquarters unit
   •    Object            Object class code indicating accounting classification
   •    Project           Project code
   •    Hours             Hours spent on a particular activity
   •    Trans_code        Code indicating type of pay (e.g., regular, overtime)
   •    Program_code      USMS mission activity
   •    Admin_ops_flag    Alpha identification of personnel type (operational or
                          administrative)

       We elected to analyze resource utilization data by fiscal year. To do
this, we totaled the hours for all pay periods within each fiscal year for each
program and project code. Next, we divided this total by 2,087 hours to
obtain the average number of personnel working on a particular program or
project code in a given fiscal year. This computation provided us with the
reported number of full-time equivalents (FTE) involved in the USMS’s
various mission activities. For example, if three deputies within a particular
district office each spent one-third of their time (approximately 696 hours) on
fugitive apprehension within a given fiscal year, the resource utilization for
that district office (for fugitive apprehension during that fiscal year) would be
equal to one operational FTE.

USMS Casework

      The USMS uses many systems for tracking or measuring its casework.
In particular, we focused on analyzing data contained in the USMS’s Prisoner
Tracking System (PTS) and Warrant Information Network (WIN).

        Fugitive Warrants

      For our analyses of the USMS’s fugitive warrant casework, we received
a data file from the WIN system, and focused on warrants received from
FYs 2000 through 2005. We also reviewed warrants closed during this same
time period. The data run was provided in a text file and imported into a
database file containing 843,944 records, separated into the following fields
used for our analyses:

                                    - 60 -
                         REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX I

Field   Name           Field Description
   •    Fid            Unique fugitive identifier
   •    War_num        Warrant number
   •    War_type       Type of warrant
   •    Mcflag         Category of warrant
   •    Origof         Original offense
   •    Ofense         Offense code
   •    Status         Status of the warrant
   •    Dist           Two-digit designation for office owning the warrant
   •    Arr_dist       Three-digit designation for the arresting office
   •    Dow            Date warrant was issued (yyyy-mm-dd format)
   •    Receiv         Date warrant was received by the USMS (yyyy-mm-dd format)
   •    Doc            Date warrant was closed (yyyy-mm-dd format)
   •    Execcd         Warrant execution code (reason warrant was closed)

       We confined our analysis to the data we obtained from the WIN
system, and did not review individual case files to examine the actual level of
effort expended on a single warrant. Thus, if a case was open during a
particular timeframe, we considered it to be worked during that period.

       Case Openings – The number of warrants received in a given period of
time demonstrates the fugitive warrant workload that the USMS was
handling. In order to conduct such an evaluation, we first organized the
cases according to the fiscal years in which they were received by all USMS
district offices. Then, we analyzed the difference in warrants received
between FYs 2000 and 2005 by warrant type and warrant category. This
analysis afforded perspective on the changes in the USMS’s level of
investigative effort among various types and categories of warrants.
However, it should be noted that the USMS has very little control over the
type or category of warrants it is given. Instead, the USMS’s fugitive
workload heavily depends on the warrants issued by the federal courts.

       Case Closings – Similar to our case openings analysis, the number of
warrants cleared in a given period of time demonstrates the types of cases
handled or completed by the USMS. For this analysis, we first organized the
cases according to the fiscal years in which they were closed by each district
office. Then, we analyzed the difference in warrants cleared between
FYs 2000 and 2005 by warrant type, warrant category, and reason for
closure.

        Prisoner Transportation

      For our analyses of the USMS’s prisoner-related casework, we received
a data file from the USMS’s PTS, and focused on prisoner movements
conducted during FYs 2000 through 2005. Additionally, we reviewed the

                                 - 61 -
                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                          APPENDIX I
level of prisoners moved by the USMS during this same period of time. We
confined our casework analysis to the data we obtained from the PTS, and did
not review individual case files to determine the actual level of effort
expended on a single prisoner or prisoner movement. The data run was
provided in a text file and imported into a database file containing
4,047,450 records, separated into the following fields:

Field   Name               Field Description
   •    Ps_pris            Unique prisoner identifier
   •    Ps_key             Unique prisoner movement identifier
   •    District_num       Two-digit designation for district office performing
                           prisoner movement
   •    Ps_office          Identifier of location within district office moving the
                           prisoners (i.e., main office or sub-office)
   •    Ps_date            Date prisoner was transported (mm/dd/yyyy format)
   •    Ps_time            Time prisoner was transported (hh:mm format)
   •    Ps_dest            Location of where prisoner is to appear
   •    Ps_reason          Reason for the prisoner movement
   •    Ps_sched_type      Unique identifier for the type of prisoner schedule
   •    Ps_fclty           Unique identifier of the prisoner’s facility of incarceration

      Prisoner Movements – The number of prisoner movements conducted in
a given period of time demonstrates one facet of the USMS’s prisoner-related
workload. In order to conduct such an evaluation, we first organized the
prisoner movements according to the fiscal years in which they were
conducted for each USMS district office. Then, we analyzed the difference in
prisoner movements conducted between FYs 2000 and 2005 by the USMS’s
production codes, i.e., the reason for transporting a prisoner. This analysis
afforded perspective on the changes in the USMS’s level of prisoner-related
casework. However, it should be noted that there are other variables that
influence the number of prisoner movements, including the federal judicial
system’s court proceedings and the investigative efforts of other law
enforcement agencies.

        Prisoners Handled – Besides determining changes in the number of
prisoner movements, we also reviewed the changes in the number of
prisoners handled by the USMS. Specifically, we focused on prisoners whom
the USMS would handle on a given day involving the transportation of a
prisoner from one location to another. For example, it could involve
transporting a prisoner from a correctional facility to the courthouse for an
initial appearance, or transporting a prisoner from a correctional facility to a
hospital for medical care.

      We focused on identifying the number of unique prisoners handled
during any particular day. In other words, the same prisoner could be
transported multiple times during the same day, such as appearing for a
                                   - 62 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX I
bond hearing at a courthouse and then going to a hospital for medical
treatment. In these instances, we only wanted to count that the USMS
handled that prisoner once during that particular day. To perform this
analysis, we had to create a unique field. Specifically, we combined the
USMS’s prisoner identification field with the prisoner production (or
transportation) date. An example of the resulting value would be 101
10/11/2002, which means that the prisoner with an identification number of
101 was transported on October 11, 2002. From this resulting value, we
were able to identify those instances in which the same prisoners were
transported multiple times during the same day. We excluded any such
records from our analyses.

       Moreover, there were several instances in which the USMS used a
prisoner identification value of “0.” According to USMS officials, this value
indicates that there was not a USMS number for these prisoners. Further,
this value may refer to the same prisoner, or it could be associated with
different prisoners. Since there was no readily available way to determine if
these records applied to the same prisoner, we excluded all records with such
a prisoner identification value.

       In order to complete our evaluation, we organized the values within our
created field according to the fiscal years in which the prisoners were handled
by the USMS within each district office. Then, we analyzed the difference in
the number of prisoners handled between FYs 2000 and 2005. This analysis
afforded another perspective on the changes in the USMS’s level of prisoner-
related casework. Again, it should be noted that there are other variables
that influence the number of prisoners handled or transported by the USMS.

      Potential Threats

      For our analyses of the USMS’s threat-related casework, we received a
data file from the USMS’s WIN system, and focused on potential threats
tracked during FYs 2000 through 2005. We performed our casework analysis
on the data we obtained from the WIN system, but did not review individual
case files to determine the actual level of effort expended on a single
potential threat. The data run was provided in a text file and imported into a
database file containing 9,835 records, separated into the following fields that
were used for our analyses:




                                - 63 -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                      APPENDIX I
Field Name                  Field Description
   • Fid                    Unique subject identifier
   • Reported date          Date potential threat was reported to the USMS
                            (mm/dd/yyyy format)
   •   Method char          Method of delivery
   •   Residency char       Information on the subject’s residency
   •   Motive char          Reason for the potential threat
   •   Mosaic r smallint    Mosaic rating
   •   Mosaic iq smallint   Mosaic information quotient
   •   War_num char         Case number of the potential threat

       In conducting our evaluation of the USMS’s casework with potential
threats, we first organized the records according to the fiscal years in which
the USMS was notified of the potential threat. Then, we analyzed the
difference in potential threats received between FYs 2000 and 2005 by
method of delivery, residency information, and the perceived threat level.

FY 2006 Update of Threat-Related Data

       Subsequent to our analyses of FYs 2000 through 2005 threat-related
data, we obtained and performed similar analyses on resource utilization and
casework data from FY 2006. For our resource utilization analysis, we
received a USM-7 data file, which contained 32,229 records associated with
protective investigations. For our analysis of the USMS’s threat-related
casework, we received a data file from the USMS’s WIN system containing
11,230 records and focused on those records reported to USMS district
offices during FY 2006.




                                   - 64 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                     APPENDIX II
                APPENDIX II: USMS WORKFORCE
                 OFFICE AND POSITION TOTALS
                        AS OF SEPTEMBER 15, 2006
                                                 POSITIONS
                                                              Office
USMS OFFICE                            1802 082 69 1811 Other Totals
ALABAMA-MIDDLE
ALABAMA-NORTHERN
ALABAMA-SOUTHERN
ALASKA
ARIZONA
ARKANSAS-EASTERN
ARKANSAS-WESTERN
CALIFORNIA-CENTRAL
CALIFORNIA-EASTERN
CALIFORNIA-NORTHERN                                     SENSITIVE
CALIFORNIA-SOUTHERN
COLORADO
CONNECTICUT
DELAWARE
DISTRICT OF COLUMBIA                                   INFORMATION
FLORIDA-SOUTHERN
FLORIDA-MIDDLE
FLORIDA-NORTHERN
GEORGIA-MIDDLE
GEORGIA-NORTHERN                                        REDACTED
GEORGIA-SOUTHERN
GUAM
HAWAII
IDAHO
ILLINOIS-CENTRAL
ILLINOIS-NORTHERN
ILLINOIS-SOUTHERN
INDIANA-NORTHERN
INDIANA-SOUTHERN




 69
      The 082 position totals include U.S. Marshals.

                               - 65 -
                    REDACTED FOR PUBLIC RELEASE
           REDACTED FOR PUBLIC RELEASE
                                              APPENDIX II


                              POSITIONS
                                             Office
USMS OFFICE              1802 082 1811 Other Totals
IOWA-NORTHERN
IOWA-SOUTHERN
KANSAS
KENTUCKY-EASTERN
KENTUCKY-WESTERN
LOUISIANA-EASTERN
LOUISIANA-MIDDLE
LOUISIANA-WESTERN
MAINE
MARYLAND
MASSACHUSETTS
MICHIGAN-EASTERN
MICHIGAN-WESTERN
MINNESOTA                         SENSITIVE
MISSISSIPPI-NORTHERN
MISSISSIPPI-SOUTHERN
MISSOURI-EASTERN
MISSOURI-WESTERN
                                INFORMATION
MONTANA
NEBRASKA
NEVADA
NEW HAMPSHIRE
NEW JERSEY                        REDACTED
NEW MEXICO
NEW YORK-EASTERN
NEW YORK-NORTHERN
NEW YORK-SOUTHERN
NEW YORK-WESTERN
NORTH CAROLINA-EASTERN
NORTH CAROLINA-MIDDLE
NORTH CAROLINA-WESTERN
NORTH DAKOTA
OHIO-NORTHERN
OHIO-SOUTHERN
OKLAHOMA-EASTERN
OKLAHOMA-NORTHERN




                      - 66 -
           REDACTED FOR PUBLIC RELEASE
              REDACTED FOR PUBLIC RELEASE
                                                  APPENDIX II


                                 POSITIONS
                                              Office
USMS OFFICE               1802 082 1811 Other Totals
OKLAHOMA-WESTERN
OREGON
PENNSYLVANIA-EASTERN
PENNSYLVANIA-MIDDLE
PENNSYLVANIA-WESTERN
PUERTO RICO
RHODE ISLAND
SOUTH CAROLINA
SOUTH DAKOTA
SUPERIOR COURT                      SENSITIVE
TENNESSEE-EASTERN
TENNESSEE-MIDDLE
TENNESSEE-WESTERN
TEXAS-EASTERN
                                   INFORMATION
TEXAS-NORTHERN
TEXAS-SOUTHERN
TEXAS-WESTERN
UTAH
VERMONT
VIRGIN ISLANDS                      REDACTED
VIRGINIA-EASTERN
VIRGINIA-WESTERN
WASHINGTON-EASTERN
WASHINGTON-WESTERN
WEST VIRGINIA-NORTHERN
WEST VIRGINIA-SOUTHERN
WISCONSIN-EASTERN
WISCONSIN-WESTERN
WYOMING
SUB-TOTAL                   83   847 1,920      656   3,506

HEADQUARTERS                23        470       594   1,087

GRAND TOTAL                106   847 2,390   1,250    4,593




                         - 67 -
              REDACTED FOR PUBLIC RELEASE
                                                                      REDACTED FOR PUBLIC RELEASE
                                                                                                                                                                                          APPENDIX III
                                     APPENDIX III: MAP OF USMS DISTRICT OFFICES


              W/WA         E/WA

                                                                                  ND
                                                                MT                                                                                                                                   ME

                    OR                                                                                                                                                                    VT
                                                                                                 MN                                                                                            NH
                                          ID                                                                                                                                   N/NY
                                                                                  SD                             W/WI                                                                          MA
                                                                                                                         E/WI
                                                                     WY                                                                       E/MI                   W/NY                                   RI
                                                                                                                                      W/MI
                                                                                                        N/IA                                                                                         E/NY
                                                                                                                                                                        M/PA                                     CT
                                                                                                                        N/IL
 N/CA                                                                                                                                                                            E/P A              S/NY
                                                                                  NE                                                 N/IN           N/OH       W/PA                      NJ
                             NV                                                                         S/IA
                                                                                                                                                                             MD
                                                                                                                        C/IL                        S/OH                                       DE
             E/CA                               UT                                                                                                             N/WV
                                                                                                                                      S/IN                                                           D.C. Superior Court
                                                                          CO                                                                                                                                and
                                                                                                                                                            S/WV
                                                                                        KS                                   S/IL                                            E/VA                    D.C. District Court
                                                                                                                 E/MO                          E/KY                W/VA
                                                                                                        W/MO
                                                                                                                                    W/KY
                                                                                                                                                                     M/NC      E/NC
                    C/CA                                                                       N/OK                                             E/TN        W/NC
                                                                                                                                     M/TN
                                           AZ                                          W/OK                               W/TN
                                                                                                                 E/AR
                      S/CA                                           NM                        E/OK                                             N/GA               SC
                                                                                                        W/AR             N/MS         N/AL

                                                                                 N/TX
                                                                                                                                             M/AL    M/GA     S/GA
                                                                                                               W/LA      S/MS       S/AL
                                                                                                 E/TX
                                                                          W/TX
                                                                                                                                                N/FL

                                                                                                                      E/LA
                                                                                                                                                                   M/FL
                                                                                                         M/LA
                                                                                        S/TX                                                                                     S/FL



        AK                           HI
                                                                                                                                                                                         Virgin Islands
                                                     Northern                                                                                                      Puerto Rico
                                  Guam               Mariana
                                                                                                                                                                        HI
                                                     Islands

Source: OIG


                                                                                 - 68 -
                                                                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                         APPENDIX IV
                     APPENDIX IV: PRIOR REPORTS

     Between FYs 2000 and 2006, the OIG conducted nine audits of USMS
programs that included various aspects related to this audit. The following is
a summary of each report.

USMS Financial Statement Audit

       In February 2006, the OIG issued its report on the FY 2005 financial
statement audit of the USMS. 70 While the USMS received an unqualified
opinion on its financial statements, the auditors identified four reportable
conditions, three of which were material weaknesses. The first material
weakness related to the overall internal control environment, including
needed improvements in the control environment, risk assessment, control
activities, information and communication, and monitoring of control
activities and financial transactions. The report also noted a material
weakness related to the management and recording of property. The third
material weakness identified deficiencies in the information system’s general
and application control environments and recommended improvements in
the areas of segregation of duties, system software, and access controls.
Furthermore, the report identified a reportable condition related to
compliance issues that may have a significant affect on the USMS’s internal
controls with regard to the Prompt Payment Act (PPA), the Improper
Payments Information Act, and the Federal Managers’ Financial Integrity Act.
Finally, in addition to the compliance issues discussed above, the auditors
reported that the USMS’s financial management systems did not
substantially comply with the requirements of the Federal Financial
Management Improvement Act (FFMIA).

      In January 2007, the OIG issued its report on the FY 2006 financial
statement audit of the USMS, which also resulted in an unqualified opinion. 71
However, significant improvements were made in internal controls that
resulted in the reduction of the number of reportable conditions from four to
two. The FY 2006 reportable conditions, both of which were material
weaknesses, identified the need for improvements regarding: (1) financial
statement quality control and (2) information system general and application
controls. The auditors also concluded that the USMS had repeat findings
with the PPA and the FFMIA.

       70
          Department of Justice, Office of the Inspector General. United States Marshals
Service Annual Financial Statement Fiscal Year 2005, Audit Report 06-09, February 2006.
       71
          Department of Justice, Office of the Inspector General. United States Marshals
Service Annual Financial Statement Fiscal Year 2006, Audit Report 07-14, January 2007.


                                   - 69 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                         APPENDIX IV
USMS’s Apprehension of Violent Fugitives

       In July 2005, the OIG issued a report on the USMS’s effort to
apprehend violent fugitives. 72 The OIG reported that the USMS has realized
an increase in the overall number of violent fugitive apprehensions as well as
an increase in the number of apprehensions of violent fugitives per staff.
However, despite an increased emphasis on the apprehension of violent
fugitives and the establishment of Regional Fugitive Task Forces (RFTF), the
proportion of apprehensions that involved violent fugitives did not change
significantly over the period of review. The USMS attributed the increase in
the number of violent federal fugitives to an increased number of federal
task forces that generated more fugitives. Moreover, the OIG found that the
USMS investigated more federal fugitives referred from other federal
agencies and that state and local law enforcement agencies requested more
assistance from the USMS in the apprehension of fugitives. In addition, the
OIG found that the USMS had not fully shifted its focus to violent fugitive
investigations and was accepting less than high-priority cases from state and
local entities. Finally, despite the RFTF’s apparent efficiency and
effectiveness, U.S. Marshals in the districts were reluctant to assign both
staff and violent fugitive cases to the RFTF. The U.S. Marshals who were
interviewed cited the following reasons for not assigning staff and cases:
(1) the RFTFs are not under the U.S. Marshal’s control, (2) the assignment
of the more complex cases to the RFTF’s might possibly deny district
deputies the opportunity to develop the needed investigative skills, and (3)
the negative effect on morale resulting from the perception that the district
Deputy U.S. Marshals were incapable of conducting the more complex
investigations.

USMS’s Use of Contract Guards

      In May 2005, the OIG released a report on the USMS’s use of
independent contractors as guards. 73 The OIG reported that, based on
workload statistics, the USMS heavily relies on independent contractors on a
daily basis for prisoner handling activities within district offices – sometimes
accounting for more than 50 percent of the total hours charged for prisoner
handling activities. The report stated that the USMS district offices were not
adhering to formal procurement guidelines and were not maintaining
complete files on the guards used. In addition, the review identified


       72
         Department of Justice, Office of the Inspector General. Review of the United
States Marshals Service Apprehension of Violent Fugitives, Report I-2005-008, July 2005.
       73
          Department of Justice, Office of the Inspector General. United States Marshals
Service’s Use of Independent Contractor as Guards, Audit Report 05-24, May 2005.


                                   - 70 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                          APPENDIX IV
significant internal control weakness related to the hiring, qualifications,
fitness for duty, and training of the guards. The OIG made seven
recommendations, including ensuring that procurement procedures are
followed, requiring contracting officers to maintain complete files, improving
the training program, and exploring alternative methods for obtaining guard
services.

USMS’s Administration of the Witness Security Program

       In March 2005, the OIG released a report on the USMS’s
administration of the Witness Security Program (WITSEC). 74 The OIG
expressed concerns that staffing levels are not adequate to manage
increasing workload levels and warned that the quality of service provided to
program participants could be adversely affected. In addition, the report
identified that USMS WITSEC personnel were working a considerable amount
of time on non-WITSEC protective details resulting in a significant drain on
WITSEC resources. Further, the OIG noted that WITSEC inspector positions
have a journeyman grade level of a GS-12, while other comparable specialist
positions within the USMS are at a GS-13. As a result, morale among
WITSEC inspectors was low.

USMS’s Prisoner Tracking System

       In August 2004, the OIG issued a report on the USMS’s Prisoner
Tracking System (PTS) that identified significant weaknesses relative to the
management and control of the PTS and major deficiencies with data
accuracy and completeness included in the PTS. 75 As of May 2006, the
USMS had adequately addressed 17 of the 20 recommendations resulting in
their closure.

USMS’s Judicial Security Process

       In March 2004, the OIG released a report on its review of the USMS’s
judicial security process. 76 The report found that, despite a greater
emphasis being placed on judicial security since September 11, 2001, the
USMS failed to assess the majority of reported threats against the judiciary


       74
          Department of Justice, Office of the Inspector General. United States Marshals
Service Administration of the Witness Security Program, Audit Report 05-10, March 2005.
       75
           Department of Justice, Office of the Inspector General. United States Marshals
Service’s Prisoner Tracking System, Audit Report 04-29, August 2004.
       76
         Department of Justice, Office of the Inspector General. Review of the United
States Marshals Service Judicial Security Process, Report I-2004-004, March 2004.


                                   - 71 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                          APPENDIX IV
in a timely manner. Further, the report cited that the USMS lacked an
effective intelligence program designed to collect, analyze, and disseminate
intelligence related to high-threat trials and threats to the judiciary. The
OIG made 6 recommendations, including assigning full-time representatives
to all of the FBI’s Joint Terrorism Task Forces as well as ensuring effective
liaison with other intelligence agencies, and creating a centralized capability
to identify, collect, analyze, and share intelligence with the district offices.

USMS’s Prisoner Medical Care Program

       In February 2004, the OIG issued a report on the USMS’s prisoner
medical care program. 77 The USMS utilized contract guards to provide
security during transportation to and from external medical treatments. The
report found that the USMS did not adhere to the Federal Procurement
Regulations or ensure that the contract guards had the requisite
qualifications, background investigations, or adequate training. Finally, the
OIG noted that the operation was ill-managed, creating an environment in
which the USMS could not manage the risks inherent with transporting
prisoners to and from off-site health care facilities.

USMS’s Warrant Information Network

      In November 2002, the OIG issued a report on the USMS’s Warrant
Information Network (WIN). 78 The audit revealed vulnerabilities in 16 of the
17 areas used to assess management, operational, and technical controls in
information systems.

USMS’s Court Security Officer Program

      In August 2000, the OIG issued a report on the USMS’s Court Security
Officer (CSO) program. 79 The report indicated that the overwhelming
majority of U.S. Marshals and chief judges who were surveyed were satisfied
with the performance of the CSO program. However, there were concerns
related to the centralized manner in which the program was run. In
addition, the OIG noted that some U.S. Marshals expressed their belief that
CSOs did not receive adequate training for the duties required of them.



       77
           Department of Justice, Office of the Inspector General. United States Marshals
Service’s Prisoner Medical Care, Audit Report 04-14, February 2004.
       78
          Department of Justice, Office of the Inspector General. The United States
Marshals Service’s Warrant Information Network, Audit Report 03-03, November 2002.
       79
         Department of Justice, Office of the Inspector General. U.S. Marshals Service
Court Security Officer Program, Audit Report 00-21, August 2000.

                                   - 72 -
                        REDACTED FOR PUBLIC RELEASE
               REDACTED FOR PUBLIC RELEASE
                                                      APPENDIX V
      APPENDIX V: USMS MISSION ACTIVITIES

     PROGRAM
                                   DESCRIPTION
 (OR MISSION) CODE
        CS                           Court Security
        DP                      Information Technology
        DS                       Community Detention
        EM                       Emergency Operations
        FW                          Fugitive Warrants
        HC                      In Court with Prisoners
        HD                   Receipt/Process of Prisoners
        HI                        In District Movement
        HM                    JPATS Prisoner Movements
        MA                  Management & Administration
        PR                         Service of Process
        SG                         Special Operations
         SJ                    Judicial/Other Protection
        SR               Judicial Protection without Prisoners
        SX                            Missile Escort
        SZ                            Seized Assets
        TH                        Threat Investigations
        WS                          Witness Security
Source: USMS




                          - 73 -
               REDACTED FOR PUBLIC RELEASE
         REDACTED FOR PUBLIC RELEASE
                                       APPENDIX VI
APPENDIX VI: UNITED STATES MARSHALS SERVICE
                 RESPONSE




                    - 74 -
         REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 75 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 76 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 77 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 78 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 79 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 80 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 81 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 82 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 83 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 84 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 85 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX VI




           - 86 -
REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX VII
   APPENDIX VII: OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                 CLOSE THE REPORT

      In its response to our draft audit report, the USMS concurred with each
of our recommendations and discussed the actions it has already taken and
others it will implement in response to our findings. In its response, the
USMS also provided clarifications to portions of our report. Before addressing
the USMS’s response to each of the OIG’s recommendations and the actions
necessary to close those recommendations, we provide the following response
related to the USMS’s clarifications to the draft report, using the same
headings used by the USMS.

Chapter 2

Strategic Planning Issues

      In its response, the USMS stated that it began using quantitative
models for the distribution of resources in 1986, not 1995 as cited by the
OIG in Chapter 2. As noted in our draft report, we attributed this statement
to a USMS headquarters official whom we interviewed during the course of
our audit. Specifically, this individual, a senior USMS headquarters official
involved in the USMS’s strategic planning process, provided us with a
document that detailed the history of the USMS’s budgetary planning
processes. This document stated that until 1986 the USMS’s budget
requests were derived from surveys of district needs as perceived by
U.S. Marshals and input from headquarters management. The document
further stated that from 1987 to 1994 the budgetary requests were
formulated solely by USMS headquarters program managers. Then,
beginning in 1995, the USMS’s budget justifications were driven largely by
quantitative workload and resource models.

      Considering the source and the documentation provided, we
considered the 1995 date to be accurate. Moreover, during our audit no
other evidence was provided that indicated 1995 was inaccurate. However,
we have revised the report to reflect the information provided in the USMS’s
response.

      The USMS also commented on its use of Unit Performance Plans,
stating that they were implemented in the latter half of 2006 and therefore
do not yet contain a full year of data. We recognize that the Unit
Performance Plans are a recent initiative intended to be used as tools for
implementing the Strategic Plan. However, as we discuss in Chapter 2,

                               - 87 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
USMS headquarters had not assigned responsibility for ensuring that the
Unit Performance Plans were complete, accurate, and meaningful.
Accordingly, we recommended that the USMS improve its strategic planning
efforts by ensuring oversight of the Unit Performance Plan initiative, and the
USMS concurred with this recommendation.

Workforce Management Planning

      In its response, the USMS provided clarifying comments on its
workforce planning models, time recordkeeping system (the USM-7),
program and project codes associated with the USM-7, and utilization of
contract guards.

District Budget and Workforce Equalization Models

       The USMS stated that the District Budget Model (DBM) figures are not
adjusted to incorporate future events as stated in Chapter 2. The USMS
further commented that future events are taken into account in resource
planning but do not affect the DBM. However, our discussion on this topic is
referring to USMS resource planning. The OIG is not suggesting that the
DBM figures are inaccurate or that future events are factored into the DBM
calculations. Rather, since the DBM is a historical model, it does not account
for future events that may require additional resources. Therefore, in some
instances the DBM figures for certain district offices may have to be adjusted
to account for new initiatives.

      In addition, the USMS believed the report statement regarding the
USMS Director’s suspension of the DBM and Workforce Equalization Model
(WEM) suggested his dissatisfaction with these models. The OIG did not
intend that this statement be read to suggest that the USMS Director was
dissatisfied with the models. In fact, the OIG based this report statement on
a January 6, 2006, memorandum from the then-Acting USMS Director,
which specifically states that use of the DBM and WEM was retired “…to
ensure a more balanced approach to how human and financial resources are
allocated…”

USM-7

      In its response, the USMS commented that it does not agree with the
OIG’s statement that the USM-7 is the only source of empirical USMS
resource utilization data. The OIG understands the USMS’s position that
other resource data exists and acknowledges that the USMS has several
resource-related data sources. However, in this part of the report, the OIG
was referring to the actual reporting of time by USMS employees, which is

                               - 88 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX VII
tracked through the USM-7. Therefore, the OIG has modified the body of
the report on page 14 to state that the USM-7 is the only source of empirical
employee resource utilization data.

Program and Project Codes

       The USMS stated that it does not use program codes as defined by the
OIG. Instead, the USMS stated that it relies on project codes for tracking its
time utilization by mission activity. The OIG recognizes that the USMS does
not utilize its program codes to track time utilization. In fact, in the report
we refer to remarks from USMS headquarters officials who characterized the
existing program codes as meaningless. However, during our audit these
same USMS officials informed us that the program codes contained in the
USM-7 data file correlated to USMS mission activities, which are also the first
two characters of USMS project codes. We believe that it may be worthwhile
for the USMS to utilize the program codes because managers would be able
to obtain a snapshot of employee utilization for each of the agency’s broad
mission areas. Therefore, we suggested in the report that the USMS could
streamline its analysis of human resource utilization through the expanded
use of program codes.

       The USMS response also provided clarification on the report’s
discussion of multiple project codes that can be associated with similar
codes. In its clarification, the USMS explained that special assignments have
specific codes because they are funded differently than other USMS mission
activities. Thus, the USMS requires different codes for tracking purposes.
The USMS further explained that these project codes associated with special
assignments are tasks that cannot be completed with district resources and
require that additional human and financial resources be provided from
headquarters.

      First, our report states that a single, specific project code could be
associated with multiple, broad program codes. During our analysis of the
USM-7 data, we requested assistance from the USMS in defining the specific
mission activity (program code) to which each project code applied. In
response, the USMS indicated that some project codes were associated with
one mission activity in certain instances but another mission activity in other
instances. In our report, we used the project code TERROTHP (Track
Terrorism Activity) as an example. At times, this project code corresponds
to the “In Court with Prisoners” mission activity, while in other instances it
applies to the “Judicial/Other Protection” mission activity. Other examples
include project codes JUDCONFP (Judicial Conferences), MAJ1000P
(Management and Administration – Judicial Security Division), and
MAJ3000P (Headquarters Security). The OIG does not disagree with the

                               - 89 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
USMS’s need to track the costs of specialized missions. However, the OIG’s
concern is that the USMS’s current time-reporting system is cumbersome
and can affect the accuracy of the data collected.

Contractor Utilization

      The USMS stated in its response that contract employees perform
narrowly defined tasks that are specified by contract and are monitored by
Contracting Officer’s Technical Representatives. Our report discloses that the
USMS uses a large number of contract employees in support of its various
mission activities. During fieldwork, USMS officials explained that a contractor
can be used on different activities to include securing, processing, and
transporting federal prisoners.

       We do not dispute that a specific contract employee may perform
narrowly defined tasks. However, our concern is that the USMS is unable to
completely define its total workload or the total level of effort expended in
each mission area in which contractors procured through national contracts,
excluding Court Security Officers (CSO), are utilized because these individuals
do not record their time in a manner similar to USMS operational personnel.
Different contract employees may be performing different tasks and
sometimes their work can overlap with that of USMS employees. If the USMS
does not have a process for capturing the number of hours contractors are
spending on each task, it cannot ascertain the total number of hours
expended on each mission activity. To this end, we recommended that the
USMS ensure that it has a reliable, standardized process of tracking, by
activity, the time of contractors procured through national vendor contracts
(other than CSOs). As reflected in its response to this recommendation on
page 81, the USMS concurred with our recommendation.

Chapter 3

       Our report discusses the allocation of operational and administrative
positions to USMS district offices, as well as the utilization of those
resources. We found that since the USMS does not allocate positions by
mission or program area, it does not have a benchmark against which it can
measure each district’s use of resources. More importantly, we found that
the USMS does not routinely review how the utilization of its human
resources impacts all aspects of USMS operations.

     The USMS commented that it does track all workload,
accomplishments, and time utilization data associated with these resources.
However, during our review several management officials at USMS
headquarters and the district offices we visited stated that they do not

                                - 90 -
                     REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
review overall resource utilization reports related to the activities and
personnel for which they are responsible. Further, our analysis of USMS
resource utilization data raised concerns about the accuracy of the time
charged to various activities, which would have been evident if the USMS
had been regularly reviewing, not just tracking, its employee utilization. As
a result, we recommended that the USMS regularly generate and review
resource utilization reports, and the USMS concurred with our
recommendation.

Resource Utilization

       As noted in the USMS’s response, Footnote 38 of the draft report
stated that each employee assigns time to 1,607 project codes. The USMS
commented that we report in Chapter 2 that no more than 250 project codes
were active in any given fiscal year. However, the OIG did not make this
determination. This statement was offered by a USMS official at the
conclusion of our audit. This USMS official could not provide us with any
documentation to support the number of active project codes during any one
fiscal year. The 1,607 figure is the number of project codes in the data file
that the USMS provided to us as evidence of the codes in existence at some
point between FYs 2000 and 2005. The USMS, though, could not identify
the specific project codes available for use during each fiscal year of our
review period.

       As discussed in Chapter 2, we were able to verify the actual number of
project codes to which time was charged by employees for each fiscal year.
Although employees recorded time to no more than 231 project codes during
any given fiscal year of our review period, the USMS could not prove that
only these project codes were available for use during this timeframe. In
light of the USMS’s comments, we have adjusted the language in our report
to clarify the discussion of the number of USMS project codes.

       The USMS also commented on Footnote 39, which states that the
“Protection of the Judicial Process” is not 1 of the 18 program codes or
mission activities used by the USMS. In its response, the USMS stated that
it does not use program codes as the OIG identified them and noted that
individual project codes will frequently affect more than one USMS mission
area.

       During our audit, the USMS provided us with an overview of the
USM-7 project codes, including the construct of a project code and what
each piece of the code represents. According to USMS documentation, the
first 2 characters of each project code reflect 1 of 18 USMS mission
activities, and USMS officials called these 2-character identifiers “program

                                  - 91 -
                       REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
codes.” During our analysis of the USM-7 data, we requested assistance
from the USMS in defining the specific mission activity to which each project
code applied. In providing this information, the USMS noted some instances
in which a determination could not be made regarding the specific mission
activity to which a time record applied. At that time, the USMS explained
that some project codes could not be associated with a specific mission
activity because the codes encompassed multiple activities. In these
instances, the USMS categorized the mission activity as “Protection of the
Judicial Process” because the tasks performed applied to various areas of
this decision unit. Therefore, we used this description for these records in
our analysis and included the resulting utilization figures as part of the
Judicial and Courthouse Security decision unit.

Threat Investigations

      In its response, the USMS disagreed with the number of FY 2004
potential threats reflected in our report. Specifically, the USMS stated that
the correct number of potential threats during FY 2004 is 553, not 678 as
depicted in Exhibit 3-5. We do not agree that the correct figure should be
553 and believe that we have accurately reported the FY 2004 level of
potential threat investigations as 678. The USMS has not provided the OIG
with any information supporting the 553 figure. Moreover, the USMS Office
of Protective Intelligence (OPI) informed us that the USMS’s threat-related
workload totaled 674 potential threats in FY 2004. As explained in
Chapter 3, the difference between our computed 678 threats and the OPI’s
674 was the timing of data entry and other factors, such as the correction of
data entry errors and training issues.

       At the conclusion of our audit, a senior USMS headquarters official
voiced concern with the accuracy of the number of potential threat figures
contained in our working draft report. We had subsequent discussions with
USMS officials from the OPI to identify the difference between our computed
figures and those reported by the OPI. As explained in Footnote 48 of
Chapter 3, our analyses concentrated on district office workload, while the
OPI’s figures were based on its workload (which was a headquarters
perspective). Thus, the figures presented in Exhibit 3-5, including the
678 potential threat investigations in FY 2004, reflect those incidents reported
to USMS district offices during each fiscal year of our review period. The OPI
officials agreed with our plan to present OIG-computed figures in this chart.
Further, it was at the OPI’s request that we included a footnote (Footnote 48)
explaining these varying workload perspectives.

     In its response, the USMS also referred to the OIG’s computation of
24 FTEs utilized on threat investigations during FY 2005, which the USMS

                               - 92 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
does not dispute. However, the USMS believes that this figure is
underreported for various reasons, including project code definitions and
organizational changes. Specifically, the USMS commented that it found
personnel in the OPI had not appropriately recorded their time to the correct
project code. As discussed in Chapter 3, we state that a senior OPI official
believed the USMS had underreported the time charged to threat
investigations. However, we believe that the USMS’s time resource
utilization data illustrate that the USMS should regularly review the
utilization of its employees and examine its level of effort in certain areas,
particularly protective investigations. As noted on page 82, the USMS
concurred with our recommendation.

Protective Investigations

       In addition to its comments on OPI resource utilization, the USMS
response included comments on its workload related to protective
investigations. The USMS included several points of clarification on
protective investigations. The USMS agreed that the number of potential
threats has increased. However, the USMS believes that the increase in OPI
staff reflects that this increased workload is being addressed. The OIG does
not discount that OPI’s increase in staffing has likely resulted in more
resources focusing on the USMS’s increasing threat-related workload.
However, as noted in the preceding paragraph, USMS data only reflected a
small number of FTEs addressing this area.

       Additionally, the USMS stated in its response that it agrees with the
anecdotal information provided by a local USMS official we interviewed
regarding the district’s threat-related workload. However, the USMS
believed that our report suggests that attention was not given to every
threat made against a USMS protectee. The OIG disagrees that the report
suggests such an inference. Our intention in this section of the report was
to discuss this USMS official’s viewpoint on the district’s operations and to
offer additional information regarding the USMS’s overall effort expended on
threat-related work.

       Further, as discussed in Chapter 3, we identified a backlog in USMS
headquarters’ review of potential threats. This assessment was based upon
whether headquarters had assigned a mosaic rating to each potential threat.
At the conclusion of our audit, a senior USMS headquarters official stated that
this backlog had been resolved as of March 2007. During subsequent
discussions with OPI officials, they further explained the process undertaken
by the USMS in addressing each of these cases, which mirrors what is noted
in the USMS’s response. Given that the OIG did not learn about this process
until the conclusion of our review, we did not confirm that the backlog had, in

                               - 93 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
fact, been resolved. Instead, we adjusted our report to include the USMS’s
assertion that the backlog had been resolved as of March 2007, as well as the
reason why assigning mosaic ratings to cases was not always necessary. The
OIG believes that our report appropriately addresses this area.

       During our review of potential threats reported to the USMS, we also
identified delays from when potential threats were reported to USMS district
offices to when they were entered into the Warrant Information Network
(WIN). As noted in its response, the USMS does not believe that the OIG
adequately explained these delays. Specifically, the USMS asserted that the
majority of these cases were reported to USMS district offices in September
and then not entered until the following fiscal year. The USMS also stated
that all 20 of the cases shown in Exhibit 3-6 as being reported to a district
office in FY 2004 but not entered until FY 2005 were reported to a district
office in September 2004. However, based upon our analysis of USMS data,
only 13 of the 20 records were reported to a district office in September 2004.
The other 7 cases were reported to a district office between March 2004 and
August 2004.

       The USMS also commented that this same situation applies to FY 2006
and infers that all 40 cases shown as being reported to a district office in
FY 2005 but not entered until FY 2006 were reported to a district office in
September 2005. However, our analysis provided different results.
Specifically, we determined that 20 of these 40 cases were reported to a
district office between January 2005 and August 2005. Therefore, not all of
the delays were due to the change in fiscal years from September to
October. The OIG understands that information from these cases may not
be entered instantaneously into the WIN. However, our concern is that a
delay in recording case-specific data hinders the USMS headquarters’ ability
to compare a potential threat against other similar occurrences. As a result,
a district office may not be privy to a key piece of information that it could
use to help prevent a potential threat from being executed.

      Following Exhibit 3-6, we present two possible explanations offered by
the OPI on why the delays in entering cases in the WIN occurred – data entry
errors and lack of training. In its response, the USMS refers to only the data
entry errors and further states that the OPI proved this reasoning to be true.
When we were provided with this information, we were told that it was the
OPI’s belief that these reasons accounted for the delays. Moreover, we were
not provided with any supporting documentation to verify that these
explanations were accurate. As a result, the OIG believes that the report
appropriately and accurately addresses this topic.



                               - 94 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX VII
Fugitive Apprehension

       In its response, the USMS stated that based upon anecdotal
information the OIG concluded the USMS does not address its fugitive
mission correctly because it fails to assign sufficient FTEs to address fugitive
apprehension cases. The OIG disagrees that the report reaches this
conclusion. Instead, we presented the viewpoint of personnel from the
majority of the USMS district offices we visited, who informed us that their
fugitive mission activity had suffered over the past few years. The OIG
points out in the report that these anecdotal statements conflict with our
review of USMS empirical data. As a result, we recommended that the
USMS regularly review the utilization of its personnel to ensure that each
mission activity of the USMS is being appropriately addressed, and the USMS
concurred with this recommendation.

       The USMS also commented in its response that the three district
offices experiencing a decrease in the number of FTEs addressing fugitive
warrants were ones in which Regional Fugitive Task Forces (RFTF) had been
established between FYs 2000 and 2005. The USMS further commented that
district offices no longer had to devote as many of their resources to fugitive
apprehension work because the RFTFs assumed the bulk of the fugitive
investigation workload. We do not discount that this is a very likely reason
for the decrease in these offices’ FTEs. However, it does not explain why the
Central District of California’s FTEs addressing fugitive warrants increased
from FY 2000 to FY 2005 when an RFTF was also established within this
district during our review period.

Contractor Utilization

       As discussed in Chapter 3, the USMS established directives on the
types of duties contract guards are allowed to perform, as well as those they
are prohibited from performing. Our review of USM-7 data reflected that
contract guards had recorded time to restricted duties. In its response, the
USMS stated that the OIG discussed these matters with USMS Assistant
Directors and that these individuals were not the best sources for responding
to this issue.

       The OIG inquired about this matter with the Assistant Directors
because they are responsible for overseeing USMS operations for distinct
program areas and should have extensive knowledge about their respective
areas. Moreover, if uncertain as to why this occurred, these individuals
should know who in the USMS to ask for clarification. In fact, at least one
Assistant Director provided us with a possible explanation after asking his
staff for information related to the use of contract guards and the recording

                                - 95 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX VII
of their time. We believe, therefore, that the Assistant Directors were a
valid source and their varied explanations accurately represented the
situation.

       Finally, in its response the USMS presented an explanation as to why
contract guards recorded time to restricted duties, an explanation we also
provided in our report. In brief, contract guards are often used to backfill for
deputies who are assigned to special details. These contract guards, in turn,
are told to record their time to the special details to which the deputies have
been assigned, not the tasks that the guards are actually performing. The
OIG disagrees with this method of timekeeping, as well as the USMS’s
assertion that any other method would result in a misreporting of resource
utilization. Instead, we believe that the current method used by the USMS
overstates the actual amount of time expended on these special details and
understates the time spent on other tasks. For example, a contract guard is
hired to backfill for a deputy assigned to a Supreme Court detail. The
deputy spends 40 hours protecting Supreme Court Justices and during this
detail records his time accordingly. The contract guard, in turn, spends
40 hours transporting prisoners, yet he records all of his time to the
Supreme Court detail. When determining the total level of effort expended
by the USMS employee and contract guard on specific activities, the USMS
will show that these 80 hours were spent on a Supreme Court detail and no
time was spent on transporting prisoners.

Chapter 4

      The last clarification presented by the USMS in its response pertains to
Footnote 58. This footnote discusses that Detention Enforcement Officers
(DEO) are eligible to apply for Deputy U.S. Marshal (DUSM) positions. We
further explain that the majority of DUSM positions are not filled from the
DEO ranks. The USMS agreed that this statement is factual, but provided
additional insight as to why this occurs. The USMS stated that the DEOs are
viable candidates for DUSM positions; however, there are fewer DEOs in the
USMS than the number of vacant DUSM positions needing to be filled in a
given year. The OIG included this footnote in the report for informational
purposes only. We were not commenting on the process or the quality of
the USMS’s workforce.

Status of Recommendations

1.    Resolved. In its response to our draft report, the USMS concurred
      with our recommendation to ensure its strategic planning efforts are
      improved through oversight of its Unit Performance Plan initiative and
      stronger promotion of the strategic plan by district management. The

                                - 96 -
                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX VII
     USMS stated that it will advance the goals contained in its Strategic
     Plan and the Unit Performance Plans through Strategic Advancement
     Forums, which were recently established by the Director on May 11,
     2007. Besides these Forums, the Director also created the Financial
     Management Steering Committee that is to develop a Tactical Plan by
     leveraging the Unit Performance Plans. Finally, the Director
     established periodic formal reviews.

     To close this recommendation, please provide us with documentation
     on each of these recently established initiatives, including how each
     will ensure the USMS’s strategic planning efforts are improved.
     Additionally, please provide the Financial Management Steering
     Committee’s Tactical Plan and its effect on improving the oversight of
     the Unit Performance Plans. Further, please provide evidence that
     district management has more strongly promoted the Strategic Plan
     among district personnel.

2.   Resolved. The USMS concurred with our recommendation to improve
     its time reporting system and ensure the integrity of system data by:
     (1) allowing for the tracking of time by the minimum number of
     project codes necessary, and (2) implementing an automated control
     to ensure that all records entered into the time reporting system
     contain an active project code. The USMS stated that it will use the
     fewest codes it believes necessary to meet multiple reporting
     requirements. Additionally, the USMS commented that although its
     payroll interface does not allow invalid project codes to be processed
     in its time reporting system, the current DOJ time reporting system
     does allow the use of invalid codes. As a result, the USMS stated that
     it will work with DOJ’s Justice Management Division (JMD) to address
     this issue, as well as consider the availability of a third-party time
     reporting system that might better fulfill this role.

     To close this recommendation, please provide evidence that the USMS
     has reviewed its list of project codes and identified, with explanation,
     those it believes to be necessary for reporting requirements.
     Additionally, please provide evidence that the systems involved in time
     reporting do not allow the use of invalid project codes.

3.   Resolved. In its response, the USMS concurred with our
     recommendation to ensure that it has a reliable, standardized process
     of tracking, by activity, the time of contractors procured through
     national vendor contracts (other than Court Security Officers).
     Specifically, the USMS stated that it will develop a system to track the
     human resource utilization of this workforce.

                              - 97 -
                   REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX VII


     To close this recommendation, please provide us with support that the
     USMS has implemented a system for tracking the human resource
     utilization of contractors procured through national vendor contracts,
     including sample utilization reports generated from this system.

4.   Resolved. The USMS responded that it concurs with our
     recommendation to implement adequate automated controls into the
     WIN to ensure that: (1) warrants that have valid warrant closing
     dates are in a closed status, and (2) fugitive warrants are assigned a
     proper execution code when closed. The USMS commented that it
     currently has automated controls in place to prevent warrants having
     valid warrant closing dates from being in a status other than closed.
     The USMS also noted in its response that it now has an automated
     control that prevents fugitive warrants from being assigned a non-
     fugitive warrant execution code. However, the USMS commented that
     errors may still occur due to programming bugs and data transmission
     errors. As a result, the USMS performs manual data reviews and
     regularly informs employees about the importance of accurately
     entering data into the WIN. For example, the USMS stated that in
     January 2007 the Assistant Director of the Investigative Services
     Division formalized regionalized support to the district offices through
     the Criminal Information Branch, which routinely reviews the WIN data
     for accuracy. Moreover, the USMS announced in April 2007 that it will
     convene a data validation and compliance review workgroup.

     To close this recommendation, please provide us evidence to support
     the statement that the USMS has implemented specific automated
     controls to prevent the specified types of errors from occurring.
     Further, please provide us with documentation on the guidance
     provided to USMS employees on the importance of WIN data accuracy.
     In addition, please provide support for manual WIN data reviews,
     including the regional support formalized by the Investigative Services
     Division in January 2007, as well as the data validation and compliance
     review workgroup announced in April 2007.

5.   Resolved. In responding to our draft report, the USMS concurred
     with the OIG’s recommendation to perform regular reviews of the PTS
     to ensure the accuracy of the information contained in the system.
     The USMS remarked that it implemented an error tracking program in
     response to the OIG’s review of the PTS. Additionally, the USMS
     stated that it created controls to stop erroneous data from entering the
     database. Finally, the USMS indicated that it will combine and review


                              - 98 -
                   REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX VII
     data from all 94 separate databases to ensure accuracy and
     completeness.

     To close this recommendation, please provide us with evidence of
     specific controls implemented to prevent data entry errors, including
     the error tracking program created by the USMS. In addition, please
     provide documentation pertaining to the USMS’s plan for combining
     and reviewing PTS data from all 94 databases.

6.   Resolved. The USMS concurred with our recommendation to review
     alternative options for assigning prisoner identification numbers within
     the PTS to ensure that all prisoner movements are accurately tracked.
     According to its response, the USMS is developing policy changes that
     will strengthen the tracking of prisoner movements and eliminate the
     use of “0” as a prisoner identification number. Moreover, the USMS
     states that it will ensure that any prisoner movement analyses include
     all records.

     To close this recommendation, please provide us with documentation
     on the development and dissemination of policy changes regarding the
     assignment of prisoner identification numbers. Moreover, please
     provide evidence that all prisoner movements are accounted for in
     USMS analyses.

7.   Resolved. In its response to our draft report, the USMS concurred
     with our recommendation to generate and regularly review resource
     utilization reports to ensure USMS resources are being used as
     intended. The USMS stated that it will create regularly generated
     reports, which will then be reviewed by USMS management.

     To close this recommendation, please provide us with evidence that
     the USMS has created all-encompassing resource utilization reports
     and that they are routinely reviewed by USMS management.

8.   Resolved. The USMS concurred with our recommendation to ensure
     that there is an adequate number of staff familiar with the data
     systems to allow for continuity in the assessment of the USMS
     workload. To close this recommendation, please provide additional
     information on how the USMS plans to familiarize an adequate number
     of staff on the various data systems and confirmation that USMS has
     provided sufficient training to multiple personnel in order to become
     adept on the functionality of the data systems.



                              - 99 -
                   REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
9.    Resolved. In its response to our draft report, the USMS concurred with
      our recommendation to develop a formalized training program for USMS
      operational personnel selected to be Field Training Officers (FTO) to
      ensure that they have the adequate knowledge, skills, and abilities to
      instruct new staff. The USMS stated that district offices currently select
      FTOs with at least 5 years of criminal investigative experience. Further,
      the USMS stated that the current policy requires that FTO assignments
      be rotated among senior deputy marshals and this rotation be based on
      specific expertise of senior personnel. The USMS commented that the
      Training Academy will develop a FTO training program deliverable that
      will be provided in DVD/CD-Rom format and disseminated to every
      district office for viewing by assigned FTOs.

      To close this recommendation, please provide us with the DVD/CD-Rom
      developed by the Training Academy containing formalized instruction for
      FTOs. In addition, provide evidence that this training program has been
      disseminated to all USMS district offices and that all FTOs have viewed
      the instructional materials.

10.   Resolved. The USMS concurred with our recommendation to ensure
      that Criminal Investigator Deputy U.S. Marshals (CIDUSM) attend the
      Advanced Deputy Training course within the timeframes prescribed by
      the USMS. The USMS stated it will change the prescribed timeframes
      for attending this course to more accurately reflect the amount of time
      it will take to conduct this training for eligible CIDUSMs.

      To close this recommendation, please provide us with documentation
      regarding the revised timeframes for completing the Advanced Deputy
      Training course, as well as executive management’s agreement that
      these timeframes are acceptable. Additionally, please provide
      evidence that the USMS has identified when all CIDUSMs are required
      to attend the Advanced Deputy Training and confirmation that those
      CIDUSMs who are currently overdue have been scheduled for and
      completed this training.

11.   Resolved. In its response to our draft report, the USMS concurred
      with our recommendation to ensure that newly appointed USMS
      supervisors attend USMS supervisory training within a reasonable
      period of time following their promotion. The USMS commented that it
      currently has two supervisory programs for its supervisors,
      administrative officers, and headquarters inspectors and that it is
      conducting at least two of these programs each during FY 2007.
      Moreover, the Training Academy established a committee to evaluate
      the effectiveness of these programs and assess alternatives or

                               - 100 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX VII
      modifications to these programs. Finally, the USMS stated that it is
      researching additional external management training programs that it
      could use for new supervisors immediately following their promotion
      until the next USMS supervisory training program is offered.

      To close this recommendation, please provide evidence that the USMS
      is tracking the training activities of its supervisors, particularly newly
      promoted individuals, and that supervisors are completing this training
      within a reasonable period of time following their promotion. Further,
      please provide documentation on the Training Academy’s assessment
      of the current supervisory programs, as well as the USMS’s attempt to
      find additional external management training programs.

12.   Resolved. The USMS concurred with our recommendation to establish
      a procedure to periodically review the training of Detention Enforcement
      Officers (DEO) to identify and rectify any backlog of untrained DEOs that
      exists. Specifically, the USMS stated that it will, at a minimum, review
      on a quarterly basis the roster of newly hired DEOs to ensure that each
      DEO is formally trained within 1 year of being hired. Moreover, the
      USMS commented that it currently has 17 DEOs who require training
      and are scheduled to attend this training in August 2007.

      To close this recommendation, please provide us with documentation
      regarding the quarterly reviews conducted by the USMS related to the
      training of DEOs and the USMS’s efforts to ensure that DEOs receive
      formalized training during their first year of employment. Further,
      please provide evidence that the 17 DEOs who have not yet attended
      the basic DEO training did so in August 2007.

13.   Resolved. In its response, the USMS concurred with our
      recommendation to establish a continuing education program for
      DEOs. The USMS stated that the Training Academy will formalize the
      opportunity for DEOs to attend advanced training programs at the
      Federal Law Enforcement Training Center (FLETC), as well as attend
      external training programs. Additionally, the response indicated that
      the Training Academy will consider developing an advanced DEO
      training program, which will provide refresher training in several areas,
      including firearms, search and restraints, and defensive tactics.

      To close this recommendation, please provide documentation on the
      Training Academy’s efforts to develop an advanced DEO training
      program, including the instruction to be provided at the training and
      the timeframes in which DEOs are to attend. Additionally, please
      provide documentation on the USMS’s availability of external training

                                - 101 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX VII
      programs for DEOs and how DEOs are notified of these programs.
      Finally, please provide us with the new DEO training policy that
      identifies DEO training requirements.

14.   Resolved. The USMS responded that it concurred with our
      recommendation to ensure that training funds are effectively managed
      and that significant surpluses are avoided. Specifically, the USMS
      stated that the Training Academy and Management and Budget
      Division will allocate funds under newly established project codes that
      more accurately reflect non-training expenses, such as response
      equipment and costs for firearms. Moreover, the USMS commented
      that it has changed the methodology used for forecasting basic
      training class costs at the beginning of FY 2007, which is projected to
      reduce the surpluses resulting from these courses.

      To close this recommendation, please provide us supporting
      documentation related to the USMS’s allocation of training funds under
      newly created project codes, as well as the newly implemented
      methodology for reducing the surpluses in training funds. In addition,
      please provide evidence that the USMS avoided a significant surplus of
      training funds at the end of FY 2007.

15.   Resolved. In its response, the USMS concurred with our
      recommendation to follow up with DOJ’s plans for establishing a
      Department-wide system to record employee training, as well as to
      consider developing an interim centralized system to track the training
      of each USMS employee. The USMS stated that it is actively working
      with JMD on a training recordkeeping system. Further, the Training
      Academy is looking at acquiring a Training Management System, which
      would automate many Academy functions, including curriculum
      management, testing and evaluation, and reporting of various data.
      Additionally, the USMS envisions this system to interface with district
      offices in order to track mandated in-district training and firearms
      qualifications.

      To close this recommendation, please provide evidence of the USMS’s
      on-going discussions with JMD on a Learning Management System,
      including any resulting decisions to establish and use a Department-
      wide system. Additionally, please provide evidence for the USMS’s
      research on purchasing a Training Management System and other
      actions to effectively track its employee training activities.




                               - 102 -
                    REDACTED FOR PUBLIC RELEASE
